<html>
<title> - RUSSIA'S FOREIGN POLICY OBJECTIVES: WHAT ARE THEY?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
           RUSSIA'S FOREIGN POLICY OBJECTIVES: WHAT ARE THEY?

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              May 12, 1999

                               __________

                           Serial No. 106-75

                               __________

    Printed for the use of the Committee on International Relations


                              <snowflake>


                    U.S. GOVERNMENT PRINTING OFFICE

62-962CC                    WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                  Mark Gage, Professional Staff Member
                    Marilyn C. Owen, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Stephen R. Sestanovich, Ambassador-at-Large and 
  Special Adviser to the Secretary of State for the New 
  Independent States.............................................     8
The Honorable Brent Scowcroft, Lt. General, USAF (Retired), 
  President, The Scowcroft Group, Inc.; President, The Forum for 
  International Policy; Former Assistant to the President for 
  National Security Affairs......................................    34
Dr. Michael A. McFaul, Senior Associate, Carnegie Endowment for 
  International Peace, Assistant Professor of Political Science, 
  Stanford University............................................    37

                                APPENDIX

Prepared Statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    54
The Honorable Christopher H. Smith, a Representative in Congress 
  from New Jersey................................................    58
Ambassador-at-Large Stephen Sestanovich..........................    59
Dr. Michael McFaul...............................................    64

Additional material submitted for the record:

Response to Question submitted to Ambassador-at-Large Stephen 
  Sestanovich by Representative Eni F.H. Faleomavaega............    78
Response to Questions for the Record submitted to Ambassador-at-
  Large Sestanovich by Chairman Benjamin Gilman..................    80
Response to Questions for the Record submitted to Ambassador-at-
  Large Sestanovich by Representative Dan Burton.................    99




           RUSSIA'S FOREIGN POLICY OBJECTIVES: WHAT ARE THEY?

                              ----------                              


                        Wednesday, May 12, 1999

                  House of Representatives,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10 a.m., in room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The meeting will come to order.
    Before we begin our business, we are saddened this morning 
about the loss yesterday of our friend Admiral James ``Bud'' 
Nance, Staff Director of the Senate Foreign Relations 
Committee, with whom we had a great deal to do as we worked 
with that Committee.
    Admiral Nance had a distinguished record of service in the 
Navy and in the White House. He made a special mark, however, 
in his years of service as a dollar-a-year adviser to Chairman 
Helms. His lifelong ties to the chairman, coupled with his 
intimate knowledge and appreciation of the workings of the 
national security apparatus in the executive branch, made him 
all the more valuable to the entire legislative branch's 
efforts to make a positive contribution to the development of 
our Nation's foreign policy.
    Our Capitol Hill family will miss him greatly, and our 
prayers are with his wife, Mary Lyda, and his family this 
morning.
    We also want to offer our condolences to Bob King, a 
longtime staffer on this Committee, on the loss of his father.
    So please join us in a brief moment of silence in memory of 
Bud Nance and in condolences to Bob King.
    [Moment of silence.]
    Chairman Gilman. Before we begin our hearing this morning, 
I note President Yeltsin's dismissal of Prime Minister Primakov 
and his government last night, further evidence of how volatile 
developments in Russia can be and in our own relations with 
Russia.
    In the 106th Congress, the International Relations 
Committee will attempt to conduct a complete review of our 
relations with Russia, the impact of Russian foreign policy on 
United States interests around the world and the success or 
failure of our programs for democratic and economic reform in 
Russia.
    The Committee began that process back in March with a 
hearing on Russian proliferation of technology related to 
weapons of mass destruction. Today we will be seeking to 
analyze Russian foreign policy and its objectives and, in so 
doing, seek to better understand whether Russian foreign policy 
is supportive or obstructive of our own policy. While some of 
us today may see Russia as helpful to us in the diplomacy 
seeking an end to the conflict in Serbia, many of us are not 
certain that we fully understand Russia's long-term objectives 
in the region of the Balkans or in other regions stretching 
across Europe, the Middle East and Eurasia.
    It is obvious, however, that all is not well in the U.S./
Russian relationship or in our own American foreign policy 
toward Russia.
    Let me cite some recent news analysis of U.S. policy toward 
Russia. From the New Republic of March 22nd, an article by 
Jacob Heilbrunn says, ``However laudable the intentions, the 
result of Clinton's policies have been disastrous.''
    From the National Journal of April 17th, an extensive 
article by Paul Starobin, entitled ``Moscow Mirage'', states, 
``The Clinton Administration sees what it wants to see in 
Russia rather than what is really there.''
    From the National Review of October 12th, an op-ed piece by 
Dimitri Simes claims, and I quote, ``The Administration has 
hopelessly botched its Russian policy.''
    I have voiced some strong concerns throughout the past 
year, both publicly and in correspondence with our President, 
over what we have seen as a highly negative Russian foreign 
policy. The President and his Administration have followed a 
policy toward Russia that has provided billions of dollars in 
assistance to its government directly through international 
financial institutions like the IMF, through favorable debt 
reschedulings, through Russian contracts with the Space 
Station, and through the grant of a quota to Russia for 
launches of American-made satellites.
    The Administration's policy has also included working with 
Russia to denuclearize Ukraine and the other Soviet successor 
states that border on Russia that inherited nuclear weapons. 
That policy has also agreed to demands by Russia for revisions 
in arms agreements and for a growing role for Russia in the 
NATO alliance.
    In 1995 and 1996, our Nation did little, if anything, when 
the Russian Government killed thousands of innocent civilians 
in the course of a brutal and unsuccessful military operation 
against separatists in the Russian region of Chechnya, 
violating its commitments as a member of the Organization for 
Security and Cooperation in Europe. The United States also 
offered incentives to Russia to halt its sale of nuclear 
reactors to Iran.
    But what do we today see Russia doing as a result of this 
favorable American approach to its problems and demands? First, 
Russian proliferation of technology for weapons of mass 
destruction to Iran and allegations that Russia has violated 
U.N. sanctions on Iraq by providing arms and military equipment 
to Saddam Hussein's regime;
    Second, new Russian arm sales to Syria, a state sponsor of 
terrorism;
    Third, Russian sales of advanced weapons and military 
technology to Communist China, fueling a growing military 
threat to Taiwan and, potentially, to our American Seventh 
Fleet that is now deployed in support of democratic governments 
on the Pacific Rim;
    Fourth, Russian entreaties to China and to India to join it 
in a strategic triangle of some sort with the apparent goal of 
undermining American leadership in unspecified ways; and, 
Fifth, Russia's insistence that it be allowed to maintain its 
military bases in Independent States like Ukraine and Georgia, 
forcing such states to agree to treaties legalizing those bases 
by simply refusing to withdraw Russian troops.
    Then there is Russian manipulation of ethnic conflicts and 
energy pipelines in the region of the former Soviet Union in 
order to try to maintain Russian dominance over the states of 
that region and to make certain future West European dependency 
on Russian-controlled energy supplies.
    Tomorrow morning our Committee will be holding a hearing on 
diplomatic initiatives for Kosovo. We, in our Nation, should be 
certain we understand what Russia is seeking by its involvement 
in the diplomatic solution to the Serbian conflict and by its 
possible participation in an international force for the Kosovo 
region.
    We also should not ignore the long-standing allegations of 
corruption at high levels in the Russian Government or the 
complaints among Russian democratic activists that that 
corruption, the murder of Russian journalists and of the 
prominent Russian democrat Galina Starovoitova, the secret 
trials of environmental activists, and support of vestiges of 
the Communist regime, are actually symptoms of a real lack of 
democracy within Russia.
    How can we truly assess Russia's future role and influence 
in Serbia if we fail to consider what influence its potentially 
growing presence there might have on the efforts to help 
democratize Serbia someday? In fact, we should ask whether 
Russian diplomacy won't simply result in a strengthening of 
Slobodan Milosevic as a ruler of Serbia.
    This morning we have a small, but quite qualified list of 
witnesses. First, we will be hearing from the Honorable Steve 
Sestanovich, our U.S. Ambassador at Large for the New 
Independent States of the former Soviet Union.
    We welcome you back, Mr. Ambassador.
    Our second witness really needs no introduction, and we are 
very pleased that he has been able to be with us today, the 
Honorable Brent Scowcroft, former adviser to President Bush for 
National Security Affairs and retired Lieutenant General of the 
U.S. Air Force. We welcome you, General Scowcroft.
    Finally, Mr. Michael McFaul, Senior Associate at the 
Carnegie Endowment for International Peace. We welcome Mr. 
McFaul.
    At this time I would like to recognize the Ranking Minority 
Member, Mr. Gejdenson, for any opening remarks he might like to 
offer. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. Listening to your 
remarks, I am not sure whether we've gone back to the old Cold 
War, or it is the new political war over foreign policy here in 
Washington. I frankly felt 6 months ago when I heard the 
Republicans were going to make foreign policy the campaign 
issue for this year, I thought that the press had gotten its 
message wrong. But clearly, by your opening remarks, by the 
kind of blunders we have seen on the House floor on the 
situation in Kosovo, with the Speaker slinking in at the end 
and voting for the policy and the whip on the floor breaking 
arms to defeat the resolution, it is clear it is going to be 
very difficult to have a logical and thoughtful dialogue about 
our foreign policy.
    It seems to me that Russia is a big problem, and it is also 
a tremendous opportunity. Sometimes, when I hear these 
statements, I get a sense there is a longing for the old Soviet 
Union so that it was nice and simple, we could just confront 
them and hope to defeat them someday. We have defeated them. 
They are in chaos, and we have to help find a way out of that 
chaos, and we are not going to do it just with polemics, trying 
to create blame for a situation that is inherently unstable.
    It is a government that has never been a democracy. It is 
not a country that had democratic institutions and then lost 
them for a period of time. There were never serious democratic 
institutions in the Soviet Union. There were none in Russia, 
and today it is in the infancy of developing a democracy.
    I come to the floor and I see amendments to cut Nunn-Lugar 
funds that helped do away with Russian weaponry. We need to 
find a way to engage the Russians not simply as the old Cold 
War enemy; we have to find a way to work with them, to deal 
with their economic and political crisis.
    I think there is no question that we are trying to create 
in some quarters in this Congress the kind of isolation of 
Russia that was created after World War I. I don't think that 
is a good move. If we want to just create a new military 
adversary, then let's isolate the Russians, let's try to 
increase their own paranoia, and we will be back where we 
started, having missed a great opportunity to reduce the danger 
in the world.
    Are there lots of dangers in Russia? You can be sure of 
that. When you look at people who operate nuclear power plants, 
who can't pay their employees for 5 or 6 months at a time, 
forget about the fissionable material; the scientists 
themselves will leave in order to feed their families.
    We have to come up with a dynamic policy in dealing with 
Russia that encourages their good behavior where they make 
profits on legitimate activities like satellite launches, and 
discourages the proliferation of technology and personnel who 
have the knowledge of creating more proliferation.
    We have to work with them to try to build both an economic 
system that we once fought, going from communism to capitalism, 
but we also have to support the development of a political 
system.
    It doesn't take a political scientist to see what chaos 
they are in today. We have to think what consequences our 
actions will bring about in Russia, how do we help them get 
control of dangerous technologies, get an economy where they 
can afford to keep their scientists instead of having 
scientists work for renegade nations around the world; and I 
think we would do a better job of that if we held hearings that 
were based on really achieving a policy and had fewer attacks 
on the President.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Leach.
    Mr. Leach. Thank you, Mr. Chairman. I hadn't intended to 
make an opening comment, but I think several observations are 
in order after the last statement.
    One of the great ironies and observations of congressional 
politics is that the minority side is criticizing a Speaker who 
supported their President and their position, and that strikes 
me as awkward.
    Second at issue, because the word ``Cold War'' has been 
raised, is the policies that are in place having nothing to do 
with who is making the policies, having nothing to do with how 
one side or the other perceives those policies. But we are in 
the process at this very moment of looking at a situation in 
Kosovo where we may well be a thwarted United States of 
America, and conceivably stalemated in such a way that we will 
have raised the enmity of many around the world in the 
developing world, but most poignantly, in Russia and in China. 
We are in the process of looking at a ``hot war'' that we are 
not doing as well in as anyone in America would like and 
precipitating two new ``Cold Wars.''
    That has nothing to do with any of the issues that this 
Congress is talking about in how we approach Russia or China, 
but simply to do with the ramifications of the hot war in 
Kosovo; and we, as a Congress, have to be very cognizant of 
that, and the Administration has to be cognizant of it. In 
fact, it could be that the two new Cold Wars that are being 
precipitated in potential may be more significant than the hot 
war itself in Kosovo; and these are the ramifications of the 
well-intended but perhaps counterproductive policy for which 
there is no aspect of partisan observations, simply an 
observation of what are the facts in the field.
    Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Lantos.
    Mr. Lantos. I didn't intend to say anything, but since the 
discussion has been opened up, I will make a couple of 
observations, Mr. Chairman.
    At no time would we need bipartisan foreign policy more 
than we do now, and I am one of those who profoundly regrets 
that bipartisanship seems to be a rare exception these days and 
strident voices of partisanship are heard in the land.
    I agree with my good friend from Iowa that our relations 
with Russia and our relations with China are certainly far more 
important than our relations with Yugoslavia, and I also think 
it is important to look beyond the daily irrational actions of 
Mr. Yeltsin and to ask what happened to U.S./Russian relations 
since the collapse of the Soviet Union.
    Some of us visited the Soviet Union for many years, and 
then Russia, and after the breakup of the Soviet Union, there 
was an enormous amount of goodwill toward the United States. We 
had a leadership delegation that visited Russia just a week or 
two after the first summit between Mr. Clinton and Mr. Yeltsin 
in the spring of 1993, and the reception on the Russian side 
could not have been more enthusiastic, cordial and hopeful, 
maybe overly hopeful.
    The following year we had another leadership delegation to 
Moscow. The reception was somewhat less ebullient. The third 
year it was not ebullient at all, and the reason, of course, is 
clear.
    We had two examples before us in this century on how to 
deal with defeated powers. After the First World War, we acted 
in a narrow, myopic, non generous fashion, and we reaped Hitler 
in the Second World War.
    After the Second World War, with the Marshall Plan, we 
acted in a singularly generous, farsighted, intelligent 
fashion, and we reaped two generations of peace.
    When the Third World war ended which, of course, was the 
end of the Cold War with the defeat of the Soviet Union and the 
triumph of the democracies, we had these two examples, and we 
did not choose the intelligent second example.
    The Russians had tremendous expectations of cooperation and 
assistance and help and participation. Yeltsin and his foreign 
minister were so pro-American that it was almost embarrassing 
to see them publicly express their love affair with us, but 
with the exception of Nunn-Lugar funds, there is very little we 
did.
    Now, I understand corruption in Russia probably as well as 
anybody here, and I am not suggesting we should have pumped 
money into Russia, but we should have provided project aid. We 
should have provided specific assistance to groups. The much 
maligned George Soros recommended that $4 a month would have 
provided adequate retirement for Russian seniors, which would 
have been a pittance. He proposed that in a Wall Street Journal 
article that I still have in my office, one of the most 
intelligent suggestions of the post-Soviet era never acted 
upon.
    I think it is not surprising that a country which was one 
of the two superpowers, which was looked up to from the 
Olympics to military might across the globe, feels unbelievably 
frustrated, and given the very second-quality, second-rate 
leadership, stumbles from crisis to crisis.
    The China case, Mr. Chairman, is a bit different because I 
think in a sense what is happening is China is very salutary 
for those in this country--I don't include myself--who have 
been very naive about China. China is showing its true colors 
as a Communist dictatorship.
    The Chinese leadership knows every bit as well as every 
Member of this Committee that the bombing of the embassy was by 
mistake, that the President and the Secretary of State and the 
Secretary of Defense and everybody else apologized. We stand 
ready to make financial restitution to the families of the 
victims, and we stand ready to bear the cost of rebuilding the 
embassy once the time comes.
    But what the Chinese Communist leadership has done was to 
revert back to the most sickening characteristics of a 
Communist police state, lying through its teeth to its people 
and whipping up anti-Western sentiment. This is not a new 
phenomenon in China. It goes back to the Boxer Rebellion and 
way beyond, but I think it is important for us to sort of get 
our bearings straight and not engage in internecine warfare 
here, but to take a prospective look at our relations with both 
China and Russia and try to make the most of the singularly 
unstable and somewhat chaotic relationship and to awaken from 
our dream of viewing China as a great democratically moving 
ally; it is anything but that.
    China has shown its true colors in the last few days, and 
that lesson had to be learned by some of our policy makers, 
both in and out of government.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I would ask that my 
full statement be made a part of the record----
    Chairman Gilman. Without objection.
    Mr. Smith [continuing]. Just make a couple of points.
    We know that Sergei Stepashin has now been elevated to the 
post of prime minister, and I think it bears remembering that 
he is one of the chief architects of the Chechen War, which I 
and many others roundly criticized, and unfortunately, there 
were some within the State Department, and even our Vice 
President, who compared it to the civil war in this country, 
which I think was a very, very farfetched and misguided 
perspective to obtain.
    As a matter of fact, at that time--and this isn't a 
partisan dig, and I think you know the earlier comments, not by 
my friend from California, but by my friend from Connecticut, I 
think it is very unfortunate to take the chairman's opening 
comments, which I think were very well thought out, and to 
reduce heartfelt and profound disagreements about our Kosovo 
policy and policies vis-a-vis Russia, and to reduce them to 
petty partisanship, I think does a disservice to honest 
disagreements.
    I think we need to engage in those disagreements where they 
manifest themselves, in an unfettered way, knowing that where 
possible--and I underscore ``where possible''--there ought to 
be a bipartisanship in our foreign policy. But to do so 
artificially, I think sets itself up to a policy that is not 
sustainable.
    I think with our Kosovo policy there are very real problems 
with that policy. I find it absolutely staggering and 
disconcerting that there was no plan, and apparently there is 
no plan now for the 820- to 850,000 internally displaced 
Kosovar-Albanians who languish and potentially are dying, but 
certainly are at grave risk inside of Kosovo. I know because I 
have asked from the top, Wesley Clark on down, what was the 
plan. If we initiate bombing, where was the fire wall to 
protect the Kosovar-Albanians, and there was no plan, and there 
is no plan today.
    The thought was that Slobodan Milosevic would blink early 
on. The idea was to bomb for 2 days, then pause and find a 
peace. Regrettably, the dictatorship has shown some resiliency 
and has not blinked.
    I think it is wrong and misguided to criticize the Chairman 
and to reduce his comments to petty partisanship, because it is 
not. There are real differences.
    There are also, as Mr. Leach pointed out, some very 
profound implications, however unwitting, that could manifest 
themselves in the PRC, as well as in Russia. We are now, and we 
have had hearings on the Helsinki Commission just recently. We 
are driving a whole generation of people who haven't made up 
their mind yet about NATO in the West into the hands of the 
ultranationalists, and that is very, very grave. I think we 
need to consider the implications as we go into the year 2000.
    Mr. Leach. Would the gentleman yield?
    Mr. Smith. I would be happy to yield to my friend.
    Mr. Leach. I apologize for taking the Chair's time, but 
just one observation: There are times that bipartisanship 
should imply a greater amount of unity. There are also times 
when the greatest reflection in world affairs of a Congress and 
an American people working together is to show differences of 
judgment. When all of this is over in Kosovo, I think it is 
going to be extraordinarily healthy that the world is going to 
see a Congress with a panoply of judgment.
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Leach. It is the gentleman's time.
    Mr. Gejdenson. I agree that there are lots of people on 
your side and on my side who have different views.
    I think some of what is happening, though, particularly 
with the majority whip, Mr. DeLay, is not about a reflection--
--
    Mr. Smith. Mr. Chairman, could I have my time----
    Chairman Gilman. Gentlemen----
    Mr. Smith. The point--and I don't know what the exact word 
was, something about the Speaker and that he was slinking in 
and voting yes. The distinguished Speaker is a totally 
honorable man. I know that I was never contacted and told, you 
must vote this way or that; it was a vote of conscience.
    Mr. Campbell, while I disagreed with his approach, I 
respected him enormously that he felt that the War Powers Act 
was triggered by this and there ought to be an up-or-down vote 
on this very important engagement. As we are seeing now, it is 
enlarging even at a time when the Russians are indicating 
Chernomyrdin and others are trying to perhaps put something 
together; and perhaps our Ambassador can shed some light on 
that.
    We are enhancing the bombing, and maybe that is part of the 
strategy, I don't know, but I assume goodwill until shown 
otherwise, and I assume it of all parties.
    Chairman Gilman. I am going to suggest that since our time 
is limited today and we have a number of good witnesses waiting 
to be heard, we will move on with our testimony.
    Ambassador-at-Large Sestanovich, Special Adviser to the 
Secretary of State for the New Independent States, assumed his 
position in September 1997 and is responsible to coordinate 
United States relations with Russia and the other states of the 
former Soviet Union. Ambassador Sestanovich has served most 
recently as Vice President for Russian and Eurasian Affairs at 
the Carnegie Endowment for International Peace. Previously, he 
was a Director of Russian and Eurasian Studies at the Center 
for Strategic and International Studies.
    Before that, he served with our National Security Council 
and with the State Department.
    Ambassador Sestanovich is an old Hill hand, having worked 
for Senator Daniel Patrick Moynihan some years back. We welcome 
Ambassador Sestanovich.
    You may put your full statement in the record and 
abbreviate your remarks, whichever you deem appropriate. Please 
proceed.

 STATEMENT OF AMBASSADOR-AT-LARGE STEPHEN SESTANOVICH, SPECIAL 
   ADVISER TO THE SECRETARY OF STATE FOR THE NEW INDEPENDENT 
                             STATES

    Ambassador Sestanovich. Thank you, Mr. Chairman. I would 
actually like to begin by saying that for Administration 
witnesses nothing is more illuminating and helpful than to open 
a hearing of this kind with the back-and-forth that I have just 
been privileged to hear. The only thing I could think of that 
would be better would be if I had the opportunity to ask you 
questions for the remainder of the hour, and perhaps as a 
procedural innovation we might think of that next time.
    Mr. Chairman, I have a fuller statement which I would ask 
to have put into the record.
    Chairman Gilman. Without objection, the full statement will 
be made part of the record.
    Ambassador Sestanovich. I appreciate this opportunity to 
discuss Russian foreign policy and Russian-American relations. 
Even before the Kosovo conflict revealed deep disagreement 
between Russia and the United States on this defining 
international problem, Members of this Committee had raised 
questions, the kind that you have raised today and others, 
about the premises of our approach toward Russia. You have 
asked where Russian foreign policy, for that matter Russia 
itself, is headed.
    Today's headlines about President Yeltsin's dismissal of 
Prime Minister Primakov give rise to further questions, and I 
am ready to say a few words about this situation later if you 
wish.
    All these are large and urgent issues on which we need a 
frank and open dialogue between the Administration and the 
Congress. Our success will depend on the degree to which we can 
develop a common perspective, understanding, and strategy; and 
I hope we can contribute to that end today.
    Mr. Chairman, our dialogue should start with a recognition 
of how thoroughly our relations with Russia have been 
transformed in the 1990's, as some of you have noted. The first 
post-Cold War decade, which is now almost behind us, has been 
marked by a pattern of cooperation between Russia and the 
United States that was unimaginable before the collapse of 
Soviet communism. I don't need to recite the diplomatic 
landmarks of this period, but they were all attended by the 
closest possible communications and coordination between Moscow 
and Washington.
    As important as they were, however, the achievements of the 
1990's did not obscure the fact that there are many in Russia 
who reject partnership with the West. They have rarely been so 
vocal as during the current Kosovo conflict. Some of these 
critics seem motivated by frustration at Russia's weakness. 
Others display outright hostility toward the United States and 
democratic capitalism. Still other opponents of cooperation 
with the United States seem guided by narrow economic or 
bureaucratic interests, and other opposition politicians find 
foreign policy issues a useful, rhetorical club with which to 
beat the government.
    I might note that as Russia heads toward parliamentary 
elections this fall and Presidential elections in 2000, we 
should expect to hear more of this kind of rhetoric.
    This mix of motives and perspectives, as well as the weak 
lines of institutional authority and control, can make it 
difficult to say what Russian foreign policy really is. Is it 
the offensive press spokesman of the defense ministry who 
compares NATO to Nazis, or is it the prudent decision to keep 
the number of Russian warships off the coast of Yugoslavia to a 
minimum?
    At a time like this, we have to keep our eye on 
fundamentals, on the core interests and practical results that 
we want to advance in our dealings with Russia.
    Last fall in Chicago, Secretary Albright stated, ``Our most 
important priority in dealing with Russia is to protect the 
safety of the American people.'' In this spirit, and 
recognizing how many aspects of our relations I am leaving 
aside, whether it is economic issues or support for independent 
media, I propose today to touch on four security challenges we 
face and give you a brief assessment of the progress we are 
making in addressing them with Russia.
    Let me start with nuclear weapons. The end of the Cold War 
made possible Russian-American agreement on deeper cuts in 
strategic nuclear arsenals than ever before, and both 
governments are committed to negotiating further cuts. 
Unfortunately, the START II treaty has become a political 
football in the Russian parliament. Despite the lack of 
progress toward ratification of the treaty, however, we are 
active on a number of fronts to bring our arsenals into line 
with post-Cold War realities. We have had expert consultations 
on the shape of a possible START III agreement, which could 
bring forces down by as much as 80 percent from Cold War highs.
    Russian and U.S. officials have also met to implement the 
agreement reached last year by Presidents Clinton and Yeltsin 
on sharing early warning data on missile launches. We have 
begun a serious dialogue on the arms control implications of 
President Clinton's directive to explore limited national 
missile defense.
    Mr. Chairman, three-quarters of our assistance dollars to 
Russia go to reduce the danger that nuclear and other weapons 
of mass destruction will fall into the wrong hands. The 
expanded threat reduction initiative, if approved by this 
Congress, will further strengthen our ability to block 
proliferation threats emanating from Russia and other countries 
of Eastern Europe and Eurasia. I strongly urge you to support 
this program and to fully fund the Administration's $1.03 
billion assistance request for Eastern Europe and Eurasia.
    Mr. Chairman, Russian-American cooperation on proliferation 
problems also has a strong basis in common interest; and let me 
say a word about that, because we have taken some important 
steps forward recently.
    Our Special Ambassador, Bob Gallucci, and the Russian Space 
Agency head, Yuri Koptev, have developed a work plan to address 
some of our most pressing concerns about missile proliferation. 
We have concluded a similar plan to enhance export controls on 
nuclear technologies. American and Russian experts met last 
month to begin implementation of these plans, and we will 
continue to make this issue a high priority until we solve it.
    Third, Mr. Chairman, let me turn to the question of 
Russian-American cooperation on the Kosovo problem. Until the 
opening of NATO's air campaign, our approaches to this matter 
had been broadly similar, including joint support of Resolution 
1199 in the U.N. security council last fall. The Russian 
leaders had also made clear that they would not support the use 
of force by NATO, and when our military action began in March, 
it produced an outburst of Russian anger and hyperbole at all 
levels and across the political spectrum.
    Since this initial rhetorical spasm, however, the Russian 
Government has adopted a posture different from Communist and 
nationalist spokesmen in two important ways. First, the 
government has expressed its determination to stay out of the 
conflict, providing neither military equipment nor military 
intelligence. We have no information contradicting these 
statements.
    Second, the Russian Government has sought to identify 
principles that could be the basis for a political settlement 
of the conflict. In Oslo last month, Secretary Albright and 
Foreign Minister Ivanov reached an agreement on all but one of 
these principles. Last week in Bonn the G-8 foreign ministers 
took another step forward and agreed on a full set of 
principles, including deployment of a strong and effective 
international security presence.
    Today, a United States team led by Deputy Secretary Strobe 
Talbott is in Moscow for further consultations with Foreign 
Minister Ivanov and Former Prime Minister Viktor Chernomyrdin, 
who serves as President Yeltsin's special representative. We 
welcome Russia's movement toward joining the growing 
international consensus on this conflict, just as we welcome 
the prospect of Russian participation in a peace keeping 
force--and, I might say, participation by other countries as 
well.
    Mr. Chairman, our interest in working with Russia to 
resolve the Kosovo crisis is but one example of an ambitious 
effort to deal cooperatively with problems of European 
security.
    Consider the breakthrough agreement reached at the end of 
March on adaptation of the CFE treaty. This hard-won result was 
possible because the 30 nations around the negotiating table 
focused on what they could gain by agreeing rather than on the 
myriad obstacles in their way. The new agreement now provides 
an impetus for Russia to withdraw its troops and munitions from 
Moldova and to begin drawing down its forces in Georgia. If 
Russia will take steps to fulfill commitments it has made, the 
United States and others stand ready to help it deal with some 
of the practical problems that are involved.
    Russian-American cooperation extends to other areas, Mr. 
Chairman; to Nagorno-Karabakh where our diplomats work 
together; to Bosnia where our troops serve side by side.
    If we are honest, we have to admit that the Kosovo crisis 
has put new strains on Russian-American cooperation. Russia's 
cooperation with NATO seems likely to be on hold for the 
duration of the crisis, but the framework for this cooperation, 
the NATO-Russia Founding Act, remains intact. So do the 
interests, Russian and American, that led to its creation in 
the first place. On this basis of common interest, we should 
expect both sides to be making active use of this framework 
once the Kosovo crisis is behind us.
    Mr. Chairman, I am sometimes asked by Russian journalists 
whether the U.S. Government is bothered by the apparent rise of 
anti-Americanism in Russia. My answer of course is yes; if it 
took hold, anti-Americanism would limit the ability of the 
Russian Government to pursue our common interests. But let me 
give you the second half of my answer as well.
    To my mind, anti-Americanism in Russia is less about us and 
more about them. It is a tool for attacking Western-style 
institutions and, above all, attacking democracy itself. Looked 
at from this angle, the problem actually seems a little less 
hopeless, for everything that we know about Russian public 
opinion suggests that support for democracy remains strong in 
that country. As long as it does, support for cooperation with 
the West, for integration rather than isolation, is likely to 
remain strong as well.
    Thank you, Mr. Chairman. I look forward to your questions 
and those of your colleagues.
    [The prepared statement of Ambassador Sestanovich appears 
in the appendix.]
    Chairman Gilman. Thank you, Mr. Ambassador.
    Mr. Ambassador, what are Russia's foreign policy objectives 
in the Balkans?
    Ambassador Sestanovich. Their objectives, if we look at 
what they say, are to end this conflict. They say that it has 
to be ended on a basis that protects the territorial integrity 
of Yugoslavia, and with that we can agree.
    They say that they aim at a set of other objectives, like 
the return of refugees, the end of ethnic cleansing, and with 
those we can agree.
    We can't agree on principles that will make it, or on goals 
that would make it, impossible for the allies of NATO or for 
other countries to actually deal effectively with the real 
problems that face the Balkans.
    If Russian objectives are to solve this problem in Kosovo 
and instability in the Balkans more generally in a way that is 
simply aimed at hampering American policy, then we won't be 
able to cooperate; but if it rests on the kinds of principles 
that their political leaders have said are the ones that they 
are pursuing, then we have a basis to cooperate.
    Chairman Gilman. Mr. Ambassador, with all that we have been 
doing to try to help Russia directly and through multilateral 
means and all that we have done to integrate Russia into 
international organizations, why do we see so much anti-
Americanism among the population in Russia?
    Ambassador Sestanovich. Mr. Chairman, you raise a 
complicated question, and I hope that you will put that same 
question to Professor McFaul later because he is an especially 
careful student of it. But let me say that there are both signs 
of anti-Americanism in Russia that grow out of disagreement 
over, in the immediate case, the conflict in Kosovo, and that 
grow out of ideological motives.
    There is still a large body of support for the Communist 
Party in Russia, and it is nothing if not anti-American. At the 
same time, it is important to see the sources of interest and 
affinity in Russian public opinion toward the West.
    There was a poll that came out yesterday, Mr. Chairman, 
that revealed that 60-plus percent of the Russian population 
favors closer relations with the West and the United States. 
One can find many different trends here. I think we have to 
take this problem as we face it day by day.
    Chairman Gilman. Mr. Ambassador, will the Administration 
stand fast in refusing to increase Russia's quota for launches 
of American-built satellites until the proliferation by Russia 
of technology related to weapons of mass destruction to Iran 
has ended?
    Ambassador Sestanovich. Mr. Chairman, as I indicated in my 
statement, our concern about the flow of missile technology and 
nuclear technology from Russia to Iran is as great as yours, 
and there is no problem we have been working on more actively 
over the past couple of years than this one.
    We have recently developed a work plan with the Russian 
authorities to try to increase control over this flow of 
technology. If we are able to succeed at that, it would create 
a basis for taking another look at the launch quotas that you 
described. If we can't succeed at it, it will be very hard to 
do that.
    Chairman Gilman. One last question, Mr. Ambassador.
    Russia is in default on its Soviet-era debt, its Treasury 
debt, its Finance Ministry bonds, and I believe on its 
Eurobonds as well. It is also close to, if not in, default to 
the IMF. In fact, any new IMF loans will simply go to pay 
Russia's old IMF debts.
    In private business that is called check-kiting. Why should 
we be supporting any further IMF loans without any new and real 
economic reforms in Russia and, particularly, given Russia's 
fairly negative foreign policy?
    Ambassador Sestanovich. Mr. Chairman, we should support 
further IMF loans to Russia only if Russia is able to do what 
you describe, and that is, put together an economic reform 
program that creates confidence in the fund that it will be 
able to use the money well and repay it. That is why this has 
been a protracted negotiation between the Fund over the past 
several months, between the Fund and Russia to work through the 
very strict conditionality that the Fund has imposed.
    I might note that the agreement that the Fund signed with 
the Russian Government, reached with the Russian Government 
last month, provides for the disbursement of funds only if the 
Russian Government is able to take a number of prior actions, 
some of which involve new legislation to accomplish exactly 
what you described, that is, more effective economic reform.
    Chairman Gilman. Thank you.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    Let me say that I agree there will be tremendous pressure 
from Capitol Hill not to increase the Soviet launches of 
American satellites. Even though I think we will damage the 
United States more in that process than we will the Russians. 
The less legitimate business we do with Russia in the kind of 
economic crisis that exists, aren't you just then increasing 
the pressure on them to proliferate? So if they can't do 
launching, what can they do--because that is where we are going 
to punish them.
    We are going to punish them in places where they are doing 
legitimate business. I would say the Administration needs to 
stand up to Congress and go after those sectors where they are 
involved in illegal activities, trying to pressure Russia on 
those.
    The problem in Russia is, we all love democracy, but 
democracy and economic collapse don't usually go together, and 
I think what you are seeing there, the pressures on the system, 
are the failure of their new freedom and economic system to 
improve the life of the average Russian. Then the politics play 
out, the nostalgia for the old Soviet Union where at least it 
was stable and at least there were no bread lines.
    So I would like you to know--if you do what you say you are 
going to have to do, aren't you really encouraging the Russians 
to sell more weapons, to do more proliferation?
    Second, I would like to understand the assessments I have 
heard on the news, that the feeling is that Yeltsin sacked his 
prime minister in order to shore up his own position in the 
upcoming impeachment situation. I would like you to help us 
understand why it strengthens Yeltsin to sack his prime 
minister.
    And last, I would like to know, on Russia-Belarus unity, is 
this just rhetoric to keep everybody in each country feeling 
that they are still part of something bigger, or is there 
potential that there would be a joining of Belarus and Russia?
    Ambassador Sestanovich. Congressman, I hope it won't 
surprise you to hear that I, from time to time, argue in the 
discussions that we have at the State Department that we need 
to stand up to Congress. So I fully endorse your recommendation 
there.
    Chairman Gilman. You will have to explain what that means, 
Mr. Sestanovich.
    Ambassador Sestanovich. I completely agree with you that 
part of promoting an economic reform and recovery in Russia on 
a sound basis that strengthens democracy involves promoting 
legitimate business. I completely agree with you there.
    Here is where we have a difficulty. It is hard for us to 
say simply, there is one sector that we say is clean and 
legitimate, while there is a dirty sector that goes on 
unregulated and uncontrolled by the government.
    Our approach has been, while encouraging what contacts we 
can have with the defense industry in Russia, in promoting 
responsible business practice by them, to urge the Russian 
Government to get control of the dirty sector, and we need 
leverage to do that. The space launch quota is one element of 
that leverage, but it is in the Russian Government's interest 
in many other ways to get control of that dirty sector.
    Mr. Gejdenson. Let me interrupt for one second. The problem 
with that theory is the Russian Government can't collect taxes. 
It can't control these technologies because there is no system 
of government there, and maybe there is not the will either.
    But let me tell you, I would think they would have the will 
to collect the taxes so they could pay their pensioners, so 
they could do the things they need to. They can't do it. It 
seems to me it is a wonderful theory, but it seems to me also 
that there is more involved.
    I hope you can answer the last two, also.
    Ambassador Sestanovich. The Russian democratic experiment 
is never going to succeed if one succumbs to that fatalism. We 
have to work with them in order to be able to accomplish some 
of these basic functions of government and of responsible 
international citizenship. I mean, governments have got to be 
able to control that kind of flow of technology or else they 
will not survive.
    Russian tax collection, by the way, is up.
    We have got to do more, though, than just rely on the 
commercial incentives that are available to us, even though 
they are very important. That is what I mentioned, the expanded 
threat reduction initiative that we have presented to the 
Congress. That will help us to prevent the proliferation of 
Russian expertise by employing 8,000 to 10,000 more Russian 
scientists. I hope we will have your support on that.
    Mr. Gejdenson. Belarus?
    Ambassador Sestanovich. Quickly on Belarus, Russians 
themselves will differ on whether there is just talk or 
anything happening there. It is a relationship about which both 
sides have very many reservations, but we watch it closely. 
Particularly, we watch it as a possible conduit for the flow of 
technology that we have been talking about just now.
    As to President Yeltsin's change of prime ministers, he 
has--as you know--an impeachment vote scheduled this week in 
the Duma. He is putting another item on the table for them to 
address, which is confirmation of the prime minister, and that 
will force the Duma to consider which one it is going to go 
ahead with.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Leach.
    Mr. Leach. I certainly would like to probe further this 
personal position of yours that you are an advocate of standing 
up to Congress and the Administration. Let me tell you, as 
someone who once worked at the Department of State, I am a very 
strong advocate of the Department of State, but I am not an 
advocate of the foreign policy that is being precipitated at 
this time by this Department of State. It is very serious, and 
I would like to read back a sentence of yours, or two 
sentences.
    You state, ``To my mind anti-Americanism in Russia is less 
about us and more about them. It is a tool for attacking 
Western-style institutions and above all democracy itself.'' I 
will tell you if that is what you are saying in the Department 
of State, you are misreading Russia profoundly as the 
Ambassador in charge of relations with Russia.
    What is happening in Russia today is a profound reflection 
of Russian history and Russian attitudes toward religion. 
Everybody knows that they have a circumstance of identifying 
with the Serbs because of the Orthodox church. In addition, in 
1941, every Russian believes, the Serbs held up the German 
army, Operation Barbarossa, and by that 2-week holdup, German 
tanks froze outside of Moscow 3 days before Christmas, and that 
saved Moscow and possibly Leningrad. That is the principal 
reason the Russians totally identify with Serbia.
    It isn't escapism, that they are being antidemocratic. They 
are profoundly opposed to the foreign policy of the United 
States of America.
    Now, there is a rationalization for that foreign policy, 
and there are also reasons not to support that foreign policy, 
but this type of escapist rhetoric of judgment precipitated by 
the Department of State and the Congress does not represent the 
highest traditions of the U.S. Department of State.
    Because at the background of this were certain negotiations 
at Ramboulliet led by the United States Department of State in 
which an agreement was reached, but also in which threats were 
precipitated. The Department of State led the movement of 
suggesting if Milosevic didn't agree, we would bomb.
    Milosevic didn't agree. To defend the credibility of the 
United States, we then bombed.
    I consider that to be an exact reversal of historic 20th 
century American diplomacy first articulated by Teddy 
Roosevelt, which was to speak softly but carry a big stick. 
This Department of State took the reverse position. It spoke 
sharply and then had to rely upon a stick that is now perhaps 
becoming one of the greatest counterproductive policy mistakes 
of this century.
    I want to ask you, do you believe our diplomacy has served 
us well? Do you believe that this is just a passing fad that is 
being used as escapism in Russia? Or do you think there is the 
potential here for a huge, marked difference in relationships 
between the United States and Russia based upon the policy that 
this Department of State has led?
    Ambassador Sestanovich. Congressman, I hope you didn't 
misunderstand what I meant by that remark about what is 
involved in the growth of anti-Americanism in Russia. I didn't 
mean to trivialize it at all or to suggest that it is escapist.
    To the contrary, I think it is, in fact, a broader 
phenomenon and a deeper one perhaps even than the emotions that 
you suggest in tracing a sense of Russian loyalty to Serbia--to 
Yugoslavia for standing up to the German invasion in 1941. That 
is, there is a deep identity crisis that is being resolved in 
post-Soviet Russia. It involves questions like, shall we be 
democratic or not, are we part of the West or not; and those 
are questions with which Russians are wrestling, have been 
wrestling before this crisis and will continue to wrestle with 
after this crisis.
    I said, though, that it seems to me there is some reason 
for confidence in the result because if the issue is ultimately 
the one that I described, that is, this kind of identity 
crisis, what one sees is rather strong support for a democratic 
orientation. That gives us, I think, some reason to think that 
beyond this particular crisis there will be grounds for common 
interests between us and Russia.
    I did not in any sense mean to trivialize it, and perhaps 
this is just a misunderstanding of the words.
    I think there is, of course, a potential for the kind of 
change that you describe, that is, a breach between Russia and 
America, depending on the kind of answers that are given to the 
questions I mention--to these questions I have characterized as 
an identity crisis. Because there is that potential is why we 
are working on a cooperative relationship with Russia, why we 
have pursued the integration of Russia into international 
institutions and have spoken of democratic Russia as entitled 
to a large and honorable place in those institutions.
    I don't have anything to apologize for in pursuing and 
advocating those policies, but I think they have to be based on 
a realistic assessment on what is happening in Russia.
    Mr. Leach. I appreciate that. My time has expired. All I 
can say is that you have begged the question. The issue is the 
ramifications of Kosovo policy on all of this and the public 
opinion polling, of which you have chosen one part to note, is 
very interesting because it has shown a remarkable turnaround 
in Russia altitudes toward the United States over a two-month 
period of time, a turnaround of stunning significance that will 
have enormously damaging implications for U.S.-Russian 
relations and, much more importantly, on the future of Russia 
itself.
    It appears that this Department of State did not weigh that 
perhaps as much as it might have as it precipitated certain 
policies that appear to be producing very fair results today.
    Ambassador Sestanovich. Can I add one comment on that, Mr. 
Chairman, if I might?
    Of course we took those ramifications into account. Our 
premise in our relations with Russia is, first, that we have 
common interests and we should pursue the kind of integration 
that I have described;
    Second, that where we have disagreements, we can't paper 
them over just because we are afraid the Russians will take it 
badly. To the contrary, we have to face up to those 
disagreements and pursue policies that are in our interests.
    On that basis, we can have a productive relationship with 
Russia.
    Chairman Gilman. Thank you, Mr. Leach.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    As we look at Russia today, what we see, it seems to me, 
Mr. Ambassador, is an economic basket case and a nuclear 
superpower with a deeply wounded national psyche, and that is a 
rather dangerous and volatile combination.
    Now, in planning policy for the post-Yeltsin era, it seems 
to me we need to be conscious of the enormous positive 
developments that have unfolded in Russia in the last decade. 
They have a free press. They travel freely. They have access to 
Western media. Practically all of the Russian leadership has 
recognized the enormous importance of economic cooperation with 
the West. Even General Lebed is making statements which 
indicate that he is beginning to understand that Russian 
economic development is inextricably intertwined with 
cooperation in the West. There is a multiplicity of political 
forces at play ranging from the most irresponsible of the 
unreformed Communists, Zhirinovsky, to truly Western-oriented 
bona fide democrats, with a small ``D.''
    If you agree with this small framework, I would be grateful 
if you would share with us--and I know this has to be very 
preliminary--your appraisal of the change in prime minister 
ship that occurred today, the likely role former Prime Minister 
Chernomyrdin will continue to play with respect to the Kosovo 
crisis. Since Secretary Talbott is in Moscow as we speak, and 
you certainly are in close touch with him, what is Strobe 
Talbott's message to Yeltsin and the Russian leadership at this 
critical juncture?
    Ambassador Sestanovich. Congressman, let me start with the 
last one. The message at this critical juncture is we have an 
opportunity, if Russia will seize it with us, to forge an 
international consensus about how to deal with the Kosovo 
conflict. We have a strong foundation for that consensus 
created by the agreement of the G-8 foreign ministers last 
week. That was an agreement on words, and now we have to see 
whether we actually can extend that to an agreement on action.
    Strobe Talbott's team in Moscow is looking, in following up 
on these meetings during former Prime Minister Chernomyrdin's 
visit to Washington for the G-8 foreign ministers' meeting, at 
whether we can go one level of detail deeper in understanding 
whether we really do have or can forge a common approach.
    We have no reason to think that Mr. Chernomyrdin's role 
will change. He's been appointed by the President as a special 
representative on this issue. He's not part of the government 
apparatus in which Members submitted their resignations today 
and all of whom are on an acting basis from this day forward. 
He's President Yeltsin's representative. Deputy Secretary 
Talbott met with him today and will meet with him probably 
again tomorrow. We have no reason to think he will not be one 
of the sources of--one of the channels of--communication on 
this issue.
    Of the significance of the change of prime minister ship, 
it is rather hard to tell at this stage. We know Mr. Stepashin. 
We don't know whether he will have a mandate to pursue 
different policies from Mr. Chernomyrdin. We can look at 
President Yeltsin's statement in which he expressed a 
commitment to accelerate economic reform. He expresses his 
dissatisfaction with the pace at which that had been pursued 
recently. In addition to expressing some thanks to Prime 
Minister Primakov and appreciation for the role he has played 
in stabilizing the situation in Russia, he did express 
dissatisfaction on this front. We may see some signs that Mr. 
Stepashin, if he is confirmed by the Duma, will have a mandate 
to work actively in that area, and certainly it is very 
necessary.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Ambassador, I, too, believe like Mr. Leach--your 
statement about anti-Americanism in Russia is less about us and 
more about them. It is a tool for attacking Western-style 
institutions and, above all, democracy. Looked at from this 
angle, the problem is actually a little less hopeless. But from 
my mind, I think it is a little more hopeless. I say that 
because whether or not we are liked, liking someone and liking 
a country collectively may be good on the short term. 
Popularity should be fifth on the listing of priorities. I am 
concerned there are very few benign dictatorships out there 
that, if they move increasingly toward fascism or 
ultranationalism or back to communism, which the Duma certainly 
has indicated they are capable of doing, at home that means 
more human rights abuses in the future and more aggressive 
foreign policy. So that makes me more pessimistic, not less. 
Again, whether or not they like us or not is less important to 
me than anything else, especially those other points.
    I do have a few questions. Sergei Stepashin, as I pointed 
out earlier, one of the main architects of the Chechnyan war 
obviously now has been raised to Prime Minister, as we have all 
noted. What impact, in your view, will that have realistically 
on Russian policy? It may have been a move obviously to divert 
attention or perhaps bring down the Duma if they fail in 
confirming him after three attempts, but what move will that 
have vis-a-vis Kosovo?
    Second, in China, Russian Representative Victor 
Chernomyrdin has said there needs to be an unconditional halt 
to NATO bombing before anything relative to peace moves 
forward. What is the Administration's response to that? Has 
Ambassador Collins sought to address the domestic audience in 
Russia on Russian television or in any other way, or try to 
give the NATO/U.S. side of things there? If you could, respond 
briefly to that.
    Finally, in terms of the resolution Mr. Gejdenson offered 
on the floor several days ago, was that something that emanated 
from the White House or the State Department? To my mind, it 
was an after-the-fact confirmation or negation of the policy. 
Whose idea was it?It seems to me it was a very high-risk 
strategy. Frankly, Ithink ambiguity would have been the more 
preferable course to take because many of us had profound 
misgivings about this policy. But we were hoping it would end 
tomorrow, and in no way, shape or form did any of us want to 
convey to Milosevic or any of his cronies that the House was so 
divided. Yet this high-risk strategy was pursued. Where did 
that come from?
    Mr. Gejdenson. Would the gentlemen yield? I am sure the 
Ambassador doesn't know, and I can tell that you I do know. It 
came from language the Senate had passed by, I think, 57 votes 
a short time earlier. Frankly, we didn't believe that it would 
become a big political battle with the Whip's actions on the 
floor.
    Mr. Smith. Again, I have heard that stated a few times 
about the Whip, the Whip and the slinking in of the 
distinguished Speaker of the House. Again, you belittle our 
profound misgivings. I am one of those who follows this and has 
followed it ever since the beginning of the war in Slovenia 
when Croatia was under attack. I remember reporting to Brent 
Scowcroft and speaking to him and the NSC people about my visit 
to Vukovar and Osjek when they were under siege. So I have a 
long-standing concern about this. To belittle that is--somehow 
the Whip is saying, this was the political vote; it was not. It 
was a profound disagreement with the Administration and how 
they were pursuing their policy.
    Again, I think you do us a great disservice when you keep 
saying that. I hope you would rethink your strategy, because 
this is not a political issue. This is an issue of profound 
differences, and the outcome--as we are seeing, the 
miscalculations that have been made are leading to a disastrous 
outcome. You keep bringing this up. My question really wasn't 
about the language, it was about the strategy.
    Whose idea was it to go forward with this, Mr. Ambassador?
    Ambassador Sestanovich. Congressman, I can't add anything 
to what Mr. Gejdenson said, but I can answer the other 
questions that you have put.
    Ambassador Collins has, in fact, been on TV talking about 
this issue and has been interviewed in the newspapers. It is a 
high priority of ours to make sure that our views are 
understood by the Russian people.
    I have seen the statement that Mr. Chernomyrdin made in 
China, or after his visit to China, proposing that the bombing 
has to end first before other issues are addressed. From our 
point of view, that is not a realistic way of solving this 
problem.
    Mr. Smith. I know I am over my time, but the original 
bombing strategy called for two days and a pause. I mean, we 
had an opportunity during Easter celebration--you had the Pope, 
eight cardinals, a cross-section of religious leaders saying, 
here is a pause opportunity to try to make peace work. Isn't 
this an opportunity right now?
    Ambassador Sestanovich. I think the Yugoslav Government 
understands very well how to seize that opportunity.
    Mr. Smith. But he doesn't care--the degrading even of his 
military. As long as his life and his power stay intact, the 
concern is that he will allow others to do the dying. The 
Kosovar Albanians, 850,000 strong, inside of Kosovo at grave 
risk, they are my highest concern, and we are not reaching 
them.
    Ambassador Sestanovich. I am getting beyond my portfolio 
here, Congressman.
    Chairman Gilman. The gentleman's time has expired.
    Ambassador Sestanovich. Mr. Chairman, if you would allow me 
to say one word about the other question that the Congressman 
raised, which was the significance of the change of the prime 
minister ship for the Kosovo policy. Our assumption is that 
President Yeltsin sets Russia's direction on this issue.
    Mr. Smith. Thank you.
    Chairman Gilman. Mr. Berman.
    Mr. Berman. Thank you, Mr. Chairman.
    I thought this was a hearing on Russian foreign policy, not 
on American policy toward Kosovo. I truly don't totally 
understand the point of my friend from Iowa. I understand why 
he thinks a policy that seems to have exacerbated that which it 
was designed to contain doesn't make a lot of sense. I don't 
understand the Ambassador's comments that he was not talking 
about Russian reactions to American policy in Kosovo, he was 
talking about a much broader question of anti-Americanism in 
Russia.
    I guess I want to throw out a different theory that really 
isn't about hostility for Western--it is not really--the anti-
Americanism isn't necessarily an attack on democracy. It is a 
feeling probably as much from what precipitated it--a 
cumulation of lots of things, but as much precipitated by what 
happened in August with, sort of the bottom falling out, as it 
is by the Kosovo episode. It is the sum total of a belief that 
we tried it their way, and look what we got. As a witness later 
today says, we are the size of Denmark economically. Add to 
that NATO expansion and just a whole accumulation of things, 
plus politics.
    There is an election coming up, which is, by the way, 
something to say, in Russia. There is an election coming up 
both for the Duma and for the President, and some anti-American 
rhetoric now is probably good politics in the context of that 
election. I think you can probably be a democrat, small ``D,'' 
and articulate sort of an anti-American position, and there is 
nothing much we will be able to do about this for the next year 
or so other than pursue sensible policies. We are still going 
to get that reaction because domestic politics in Russia 
requires it, and we shouldn't drive ourselves nuts, because 
there is not too much we can do about it.
    Ambassador Sestanovich. I think the kind of feelings of 
marginalization and helplessness that you described maybe are 
an important part of what we are seeing now. You are certainly 
right that ``small-D'' democrats in Russia can express anti-
American anger. I would add they do it with considerable 
unease, because I think they sense what it is really about--
that it is about the sort of broad political choices, the sort 
of ultimate political choices about the kind of country they 
are going to have and not just about policy issues.
    You mentioned this ``we tried it their way'' sense of 
frustration created by last August's crash.
    Mr. Berman. Or created by the reforms of 1993 or 
everything.
    Ambassador Sestanovich. Sure. What is interesting is right 
after August there was a lot of that talk; ``We tried it their 
way, now we will try it our way.'' You hear that much less now 
because there is a kind of realism about what the real 
possibilities are in the modern world.
    People in Russia across the political spectrum who look 
hard at what the real options are for Russia don't kid 
themselves about a third way. There is much less of such talk 
now than in the early fall, and I think that is a very positive 
development.
    Mr. Berman. One last point, much narrower. Mr. Gejdenson, 
the gentlemen from Connecticut, raised the issue on the space 
launches, and I just want to praise your answer. It is crazy 
not to allow space launches by an entity that is not 
proliferating, that is employing a lot of people, that is doing 
something that is helpful to us and helpful to American 
economic interests and Russian interests? In the course of 
doing that, the idea of leveraging realistic things, not 
change--not total tax collections, but some of the things you 
mentioned, are they putting monitors in some of these 
questionable plants? Are they actually going to pass the export 
control regime they have now talked about for a year and 3 
months? Those specific kind of things--as part of reaching 
this--the Russians have a million people, as I understand it, 
that are employed in this program. There is some leverage 
there.
    I hope at the end of the day we get to the point where they 
are doing some of the things we would like them to do on 
proliferation and we are lifting the cap, because that seems to 
me like the best possible outcome.
    Ambassador Sestanovich. I can't improve on what you said.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Berman.
    Mr. Campbell.
    Mr. Campbell. Thanks, Mr. Chairman.
    Ambassador, I am going to use my time to try to convey a 
message and ask you maybe to convey it back to the Secretary 
and to the President. Normally I would use my time to ask you 
questions, but this is a very critical and unusual 
circumstance.
    Let me begin with a moment of background, because you don't 
know me well. I happen to support the President in a large 
number of his foreign policy objectives and domestic 
objectives. For example, on foreign policy, I think he is 
absolutely right on family planning. I think he is right to 
reverse the Mexico City policy. I think he was courageous to 
reach out to China. I think he was especially courageous to go 
to Gaza and to stand up for some rights of people who don't 
have that many people standing up for their rights.
    So I don't speak from the point of view of somebody who is 
a committed critic of the President, nor am I known as the most 
partisan member of my party. I don't think anybody in this body 
would say that. So my advice comes from a heart very worried by 
what I perceive to be the Administration's choice--and here I 
am afraid you said it, although I think you said it 
humorously--to stand up to Congress, rather than to recognize a 
coequal branch. Since that is an issue of the most tremendous 
importance regarding Kosovo, I am going to take my time to 
speak to it.
    When the Speaker of the House failed to quash me, when the 
Speaker of House failed to use his power to prevent a vote, he 
was criticized by people in the Administration, and it was said 
to be a sign of weakness. We heard some of that criticism today 
that the Speaker was supposed to stand up to the far right and 
prevent this vote from happening.
    I am not far right. I am probably the most moderate 
Republican in the Congress. Certainly I am in California. What 
the Speaker did was to give us the right to vote, and that is 
not a sign of weakness. It was a respect for the constitutional 
process. His reluctance to impose his own will on the 
membership was, I think, a sign of tremendous respect.
    For example, in the Persian Gulf War it was similar. The 
Speaker at that time, an honorable man, was Speaker Foley, and 
the Minority Leader Bob Michel, when I served before, they did 
not try to impose their will. They said, this is war and peace, 
and in war and peace we are not going to try to establish a 
party line and make you walk it.
    As to pressure, there was pressure, Ambassador. There was 
pressure. Talk to Dennis Kucinich about pressure on the 
Democratic side. ``I know you might disagree with this war, but 
for heaven's sake stick with the President on this one.'' That 
was an argument that was heard on the floor of the House, and 
truly it should have been left to the individuals.
    The reason why the vote failed on an evenly divided vote, 
213 to 213, was because the President didn't try. I think that 
members of his party tried, and I know for a fact that 
colleagues on this Committee tried to convince their 
colleagues. But starting from an attitude that we really only 
need to tell Congress what we are going to do, as opposed to we 
need to get the approval of Congress as a partner, flawed the 
outcome. It wasn't the President's proposal--I could have 
answered Chris Smith's question--because the President said he 
didn't need congressional support--because the Secretary of 
State said she didn't need to come to Congress. When I asked 
the Secretary of State in open hearing whether there were 
hostilities in Kosovo, she refused to answer my question.
    Now, there are hostilities. I know the legal consequences 
of admitting that. But what she should have said is, ``Yes, and 
we disagree with the War Powers Act for the following 
reasons.'' But to say to a Congressman sitting on this 
Committee, ``I will not answer your question as to whether 
there are hostilities in Kosovo,'' is to denigrate the coequal 
branch of which I am certainly the most humble and least 
important Member, but, nevertheless, I am a Member.
    I think that the President hurt his case measurably by 
sending this letter to the House floor during the middle of the 
debate, a letter that was misconstrued by people of good will 
that the President was promising he would indeed get a vote 
from Congress before introducing ground troops. I don't 
criticize my friends for misconstruing it because I think it 
was intended to be misunderstood.
    But what it says when you parse it is, and I quote the 
President, ``I would ask for,'' (not I would obtain) 
``congressional support,'' (not congressional approval or vote) 
``before introducing U.S. ground forces into Kosovo into a 
nonpermissive environment.'' That doesn't mean before 
introducing U.S. ground troops. That means if you bomb 
Yugoslavia enough, what had been a nonpermissive hostile 
environment might become a quasi permissive environment.
    This reliance upon torturing words was so disappointing 
when what our people wanted and the Congress wanted was clear 
talk, straight talk. Here it is. We are at war. Here is my case 
for being at war. Support me.
    If the President had tried, he would have convinced at 
least one more Member, and he would have then had the approval 
for the bombing. It is a direct consequence of his not trying, 
in my judgment, that he suffered that blow to what he was 
attempting. Our country did not suffer because our 
constitutional processes worked.
    Mr. Chairman, thank you for indulging me.
    Chairman Gilman. The gentleman's time has expired. Let me 
say----
    Ambassador Sestanovich. Might I just have one word here?
    Chairman Gilman. If you wait just a moment. Let me say to 
our Committee we will continue right through the voting. I have 
asked one of our Members to go over and come back, and we will 
continue with the testimony right through the voting period.
    Chairman Gilman. Mr. Ambassador, I am sorry, did you want 
to respond?
    Ambassador Sestanovich. I wanted to say to Congressman 
Campbell that he has given me the idea to say I need to clarify 
what I meant by ``stand up to the Congress,'' which is I think 
something that you would agree with, which is when we have a 
disagreement, argue it out, say what we think. I will certainly 
convey, probably without the full eloquence that you gave to 
it, your message to Secretary Albright.
    Mr. Campbell. Thanks very much.
    Chairman Gilman. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I want to welcome Ambassador Sestanovich to our hearing 
this morning. In the real spirit of bipartisanship, I wanted to 
make a statement earlier that I do associate myself with the 
comments made earlier by the gentleman from California, Mr. 
Lantos.
    As you know, Ambassador, we had such a tremendous high when 
the Berlin wall came down, and there was tremendous expectation 
on the part of the world to think that now Russia is going to 
be part of us, living as a free people without communistic 
practices. All this has happened now after the many years that 
we have tried.
    I wanted to ask you, do you perceive a danger or, at least 
in the Administration, a real danger of the failure on the part 
of the Western industrialized nations to provide substantive 
economic assistance to a former nuclear power as is the Soviet 
Union? There seems to be a little repetition of what happened. 
With the failure of the Allies in World War I, we ended up 
really, really having the more serious situation of having to 
deal with a Nazi Germany.
    Do you see any real sense of nationalism happening in 
Russia that will end up producing another Stalin? I sense that 
we have failed on the part of the economic industrialized 
nations in providing the proper economic assistance to Russia. 
You had mentioned earlier that 75 percent of our own economic 
assistance goes to the nuclear issues and not economic 
assistance. Can you correct me on that?
    Ambassador Sestanovich. No, that is what 75 percent of our 
bilateral assistance to Russia is, in the area of threat 
reduction, and I think it is a very good investment. However, 
you should be aware that there are many other forms of 
assistance that the Russian Government receives from other 
countries and other institutions. From international 
institutions, the Russian Government has received credits on a 
very large scale. The IMF's program in Russia is now the 
largest single program that it has--its indebtedness or the 
credits that it has extended to Russia. The World Bank has 
large programs; the EBRD also. Many countries have extended 
Eximbank credits, trade credits.
    Mr. Faleomavaega. What is the total? What is the bottom-
line dollar value?
    Ambassador Sestanovich. I will get some better numbers than 
I can give you off the top of my head.
    [Ambrassador Sestanovich's response to this Question 
appears in the appendix.]
    Mr. Faleomavaega. Billions? Hundreds of millions?
    Ambassador Sestanovich. Tens of billions, surely.
    Mr. Faleomavaega. And they are still asking for more.
    Ambassador Sestanovich. It is a long process, and their 
economic situation is very difficult. It is very difficult 
above all because--not because the level of assistance has been 
inadequate, but because Russian----
    Mr. Faleomavaega. I am sorry, Mr. Ambassador, but I would 
like to yield to my friend from Massachusetts for a question.
    Mr. Delahunt. I thank the gentleman for yielding.
    I think the point that my friend is making--and maybe I am 
wrong--but, in the aftermath of World War II, this Nation, I 
think, did something that was extraordinary, clearly it was 
unpopular at the time, and that was the Marshall Plan. I think 
what he is suggesting is that this didn't occur with the demise 
of the Soviet Union and the aftermath of the Cold War, and 
possibly we missed an opportunity.
    I agree with Mr. Berman and Mr. Gejdenson, it just makes no 
sense to punish the Soviet Union and punish ourselves and drive 
them further into the area of proliferation.
    I just have one quick question relating to Kosovo. Several 
statements have been made that it was--and I just wrote this 
down--the original strategy was two days and a bombing pause. I 
never heard that, Ambassador. I never heard that from the 
Administration. I haven't heard it anywhere. Another claim that 
was made was that Milosevic would blink. I never heard anyone 
from the Administration suggest that. Can you tell me, is--am I 
accurate in saying that was never a pronouncement of the 
Administration in terms of the crisis that we are currently 
experiencing?
    Ambassador Sestanovich. I am with you, Congressman. The 2 
days and a pause is a formula that is unknown to me. I hope 
that it is not established as retrospective in rewriting the 
history of this.
    Mr. Delahunt. I am really concerned that we are going to 
create facts, as we often do here, by simply repeating them 
often enough. I have never heard the Administration stake out 
that position. If there is evidence of that, I would like 
somebody to come forward and provide that documentation.
    I have to leave now because I am in the midst of being on 
the floor.
    Chairman Gilman. We will have to recess the hearing until 
Mr. Ballenger returns, when will he be taking over the chair.
    The Committee stands in recess just for a few minutes.
    [Recess.]
    Mr. Ballenger. [Presiding.] I am filling in until our 
leader gets back--Congressman Cass Ballenger. I am sorry I 
missed substantially what you said here, and then I was just 
about listening to Tom Campbell's description of his status as 
far as politics is concerned, and they asked me to go vote real 
quick and come back so we can keep this thing going.
    But I would like to ask you what has occurred in the paper 
this morning, and I think this question leads to it. During his 
1992 visit to China, President Yeltsin stated that Russia 
should sell China its most sophisticated weapons and so forth. 
Since then Russia has sold China advanced fighter aircraft, 
quiet-running diesel subs, guided missile, destroyers armed 
with advanced Sunburn anti-ship missiles and so forth. In fact, 
China now accounts for about 30 to 40 percent of all Russia's 
arms exports. One U.S. periodical described this as China's 
buying binge in Moscow and called it a message to the U.S. 7th 
Fleet. Isn't Russia helping China to challenge us as far as 
force projection in the Pacific Rim in the future is concerned?
    Ambassador Sestanovich. Congressman Ballenger, you are 
right that China has become a big customer for Russian arms 
exports. You are also right that we need to look carefully when 
arms transfers of this kind have the potential to affect 
regional balances of power and create dangerous capabilities 
that threaten our servicemen who are stationed abroad. That is 
certainly the way in which we look at this problem.
    I might say to you that it is our judgment that Russian 
transfers have not, in fact, significantly altered Chinese 
capabilities vis-a-vis our own in this region, but it is an 
important issue to watch closely because one could imagine 
transfers that would have that effect. For that reason, this is 
an issue that we discussed with the Russians; and were we to 
see the kind of trends that would have that threatening 
potential, it would be a problem for us.
    Mr. Ballenger. A couple more on that line. Is the United 
States concerned over Russia's assistance to India in extending 
the range of its missiles and over the new Russian sales of 
cruise missiles to India? Did I state that properly? Is the 
United States concerned about Russia's assistance to India to 
extend the range of its missiles?
    Ambassador Sestanovich. Let me say that we are concerned 
about transfers, military transfers particularly, of 
sophisticated equipment and capabilities from any direction to 
India because our effort has been to--in the wake of India and 
Pakistan's nuclear tests--to show that there is an 
international consensus against the appearance of new nuclear 
powers. I am not familiar with the particular case that you are 
referring to, Congressman.
    Mr. Ballenger. The sale of cruise missiles to India.
    Ambassador Sestanovich. Let me see if I could leave it this 
way, Congressman. I would be glad to arrange a classified 
briefing for you on this subject. My understanding about the 
most recent Russian transactions with the Indians in this case 
is that they involved training and maintenance. Let me look 
into it further, and if you would be interested in a classified 
briefing, we could certainly set that up.
    Mr. Ballenger. In the New York Times, April 27th, 1998, 
Russia----
    Ambassador Sestanovich. Often classified material.
    Mr. Ballenger. Classified as far as the New York Times is 
concerned. It said, ``Russia helping India to extend range of 
its missiles.'' Obviously sometimes the New York Times gets 
ahead of the rest of us around here. I just was curious.
    Ambassador Sestanovich. They are ahead of me on this point, 
Congressman, but I would be glad to look into this for you.
    We have seen the press reports concerning the transfer of 
rocket stages from Russia to India. The transfer of these 
rocket stages was permitted by the agreement the United States 
negotiated with Russia in July 1993 to resolve a 2-year dispute 
over Russian plans to assist India in the indigenous production 
of cryogenic rockets. The results of those negotiations were 
briefed to Congress and widely reported in the press at the 
time.
    Pursuant to the July 1993 agreement, which was implemented 
beginning in September 1994, Russia agreed to limit the 
cryogenic engine contract to the transfer of seven complete 
rocket-stages to India.
    We have no information to indicate the Russia has not been 
abiding by its agreement. Were we to obtain information to the 
contrary, we would make our concerns known to senior levels of 
the Russian government, and would Urge the GOR to bring its 
missile exports in line with its bilateral and multilateral 
missile nonproliferation commitments.
    Mr. Ballenger. Let me just ask a basic, then. Russia's 
ability to produce cruise missiles of some capabilities, is 
that fairly common knowledge or not?
    Ambassador Sestanovich. Sure. I mean, this is the old joke 
the Soviet Union didn't have a military industrial complex; it 
was a military industrial complex, and with capabilities across 
the spectrum.
    Mr. Ballenger. I am just referring to the paper stories 
about India--I mean, China and Russia getting together to veto 
whatever is going to go on in Kosovo and telling us to get out 
immediately. How seriously do you take that, that basic threat 
or effort on their part?
    Ambassador Sestanovich. There is no doubt if there were to 
be a U.N. Security Council resolution on Kosovo, it would have 
to be accepted by the permanent Member because they all have 
vetos.
    Mr. Ballenger. Right.
    Ambassador Sestanovich. When you find Russian and Chinese 
spokesmen stating positions that are at odds with how we see 
the situation and the path toward a solution, it obviously 
reduces the likelihood that we are going to have consensus, a 
workable consensus, in the Security Council.
    As I mentioned earlier, Congressman, perhaps it was when 
you were out of the room, from our point of view, what Mr. 
Chernomyrdin said after his conversations with the Chinese was 
unrealistic as a way of dealing with this problem. Proposing a 
bombing halt before the crucial issues are resolved is simply 
not the path that NATO has proposed or that will actually 
address this problem.
    Mr. Ballenger. Mr. Faleomavaega, you yielded a minute. 
Would you like the rest of your time?
    Mr. Faleomavaega. I would like to restore my time if there 
is any way to.
    Mr. Ballenger. Sure, be happy to.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Again, Mr. Ambassador, I think the Chairman alluded to 
earlier about--as you had indicated--the Security Council. I 
think my question is relevant because Russia is a member of the 
Security Council. Will that be OK? I am just curious. As you 
know, the members of the nuclear club have the absolute veto 
for the Security Council wherever or whenever there are crises, 
especially military involvements, and all of these are taken 
into consideration. I have always been given the impression 
that if there was a crisis--not just the Kosovo crisis, let's 
just look at Yugoslavia as a whole with Slovenia and Croatia 
and Bosnia came into the picture--I have always been under the 
impression that the Security Council would be the base 
organization to which nations like ours and the 19 member 
nations of NATO would appeal in the United Nations to resolve 
this conflict. It is a military conflict. We've got a problem 
with Milosevic obviously, but then also you have to separate 
the good people of Serbia or those of Serbian ancestry. 
Sometimes we have a difficult time, having forgotten a little 
bit about the history, why there's such a close affinity 
between Russia and Serbia. That has been alluded to earlier, in 
World War II they were both fighting a common enemy, and that 
was Nazi Germany. I think I also understand the fact that 
Serbia would never want any German to come to their turf, if 
you will.
    One of the successes as to why Tito was able to control 
Yugoslavia was because he was not only part Serbian, but I 
think he was also part Croatian. But because of that and the 
strong arm of Tito, even the mighty Soviet Union couldn't come 
in and take over Yugoslavia like they did Hungary and 
Czechoslovakia.
    My point here, Ambassador, is why wasn't the Security 
Council the controlling organization of this whole crisis in 
Yugoslavia? Why NATO? My understanding is that NATO is supposed 
to be a defense security organization. Here is the point I am 
making: Ethnic cleansing, my gosh, there is ethnic cleansing 
all over the world. I can tell you about the 100,000 
Melanesians or West Papua New Guineans against which the 
Indonesian Government has been conducting military atrocities, 
murders, killings, rapes, and all of this--it is found in West 
Papua New Guinea.
    My point is, does this mean that we are looking into ethnic 
cleansing, perhaps having security organizations in Asia, a 
NATO in Asia, a NATO in Africa, in the same way that we have a 
NATO that is supposed to defend countries in Europe? Because 
this is what we are leading into. I just am curious, did the 
Administration consult closely with President Yeltsin of Russia 
when the Yugoslavian crisis came to the front? Not just Kosovo, 
but the time that Slovenia and Croatia and Bosnia came into the 
picture.
    Here is the concern that I raise, Mr. Ambassador. When the 
North Korean crisis became nuclear, we never bothered 
consulting with the South Korean leaders, and they were a 
little miffed about that. In the situation with China; we went 
to China; Japan also felt a little miffed about consulting with 
them and expressed their concerns. So now the situation is in 
Yugoslavia. I was just curious, Mr. Ambassador, had there been 
close consultations by the Administration with President 
Yeltsin way before the Kosovo thing ever came into being?
    Ambassador Sestanovich. Absolutely, Congressman. Before the 
sort of deepening of the Kosovo conflict and crisis, last 
winter and spring, we consulted closely with the Russians and 
worked together with them to devise a settlement to the war in 
Bosnia. As I mentioned earlier, our forces served side by side 
in Bosnia in SFOR now, and have for, I believe, 3 or 4 years.
    The consultations between Russian and American foreign 
ministries have been close. Our diplomats have participated in 
the contact group which has dealt with the Kosovo issue. 
President Yeltsin and President Clinton have spoken several 
times since the air campaign began and many times before that 
on this issue and have corresponded on the same subject 
frequently.
    We were cosponsors of the U.N. Security Council resolution 
last fall. Our diplomats were together at the Rambouillet 
negotiations. President Yeltsin, President Clinton issued a 
statement on Kosovo at their summit in September in Moscow. So 
there has been no difficulty in understanding each side.
    Mr. Faleomavaega. Did President Yeltsin agree to the 
provisions of the Rambouillet proposal to President Milosevic? 
As I understand, some of those provisions were very harsh.
    Ambassador Sestanovich. We did not have full agreement with 
the Russians at Rambouillet.
    Mr. Faleomavaega. Mr. Chairman, my time is up. I will try 
the next round. Thank you, Mr. Chairman.
    Mr. Ballenger. Mr. Cooksey.
    Mr. Cooksey. Thank you, Mr. Chairman.
    Mr. Ambassador, welcome to the Committee. I'll try not to 
beat up on people from the State Department, and I will not 
raise the ``K'' word in our discussions today. I believe in the 
basic goodness of people and the Russian people, but Russia has 
changed. The former Soviet Republic no longer exists because of 
a flaw in economic policy and political policy. But whatever 
the reasons, it is important, I feel very strong, that we 
should have good relations with Russia, and I think we could do 
it on a people-to-people basis.
    I happen to believe that the leaders of too many 
governments, the Russian Government, our government probably 
and some other governments, have a lot of flawed leaders, and 
our systems don't always put the best and the brightest there. 
But in this era in which television is the medium, the person 
who gets there is the person who stands up on top of a tank and 
gives a speech, even though he has, maybe, a brain that is 
pickled by whatever. Or someone becomes a leader because he 
gives one speech and makes one statement in the province--and I 
will not use the ``K'' word--and he becomes the leader of 
Yugoslavia. That even happens today and probably in this 
country.
    But still, accepting those premises, my question is who 
dictates Russian foreign policy toward the United States? Who 
dictates Russian foreign policy toward China? Who dictates 
Western foreign policy toward Western Europe? And who dictates 
Russian foreign policy toward the former Soviet Republics?
    Now, and as an adjunct to that, I would like to know who 
dictates U.S. foreign policy toward Russia? How do you arrive 
at your foreign policy conclusions? Now, that is the first 
question.
    Second question, there was a book that was published this 
year called ``The Haunted Wood: Soviet Espionage, Espionage in 
the United States during the Stalin Period,'' and it was based 
on, as I am sure the period that an American writer or Russian 
writer had access to the KGB files in 1992. These files 
indicated that Alger Hiss was guilty, the Rosenbergs were 
guilty, a member of the State Department or more than one were 
spying for the Soviet Union, and even a Member of Congress from 
New York State was spying for the Soviet Union.
    My question is, what is the State Department doing to make 
sure that you don't have someone that is spying for Russia 
today? The reason I ask that question is, do people in the 
Russian Government, whoever these people are that are dictating 
Russian foreign policy, do they know what our foreign policy is 
before Members of Congress? Do they know it because of their 
espionage, or do they know it because they are in this hearing 
room? I don't think this is the best place to learn what our 
foreign policy is going to be, but I am sure there are people 
here.
    One of my great games that I play in this room is that I 
try to pick out who from the country being discussed is here 
representing that country. I already picked out about three 
people here that I assume are working for the Russian 
Government. But I won't put them on the spot.
    But, anyway, if you could answer those questions, I would 
appreciate it, and hopefully that will----
    Mr. Sestanovich. I hope there are some Russian diplomats 
here and others as well. I would hate to think that they have 
something better to do than to listen to our discussions. But I 
can assure you that the State Department spends a lot of effort 
at internal security measures to make sure that the people who 
work for us are security-conscious, could carefully control the 
information that is available to us that involves national 
security interests, and that only the people who should have 
access to that information do, and that only the people who 
should be working at the State Department do. But if you are 
interested in a fuller discussion of that question, I can 
arrange for it.
    The other question you asked is who dictates Russian 
foreign policy, and then you added as an aside, who dictates 
our policy. I think probably the word that would make it hard 
to answer that is ``dictates,'' because I think both processes 
are much more diffuse and pluralist than the word ``dictate'' 
would allow.
    The letter of the Russian Constitution gives the President 
the authority over foreign policy, but he has a lot of people 
who work for him. He has a foreign ministry, a defense 
ministry, an intelligence apparatus, a security council, a 
personal staff, and all of those institutions, and people have 
an influence. In addition, there is a Parliament that has its 
prerogatives, not so different from those in other countries, 
involving budgetary oversight.
    Mr. Cooksey. Is their level of sophistication greater than 
this country or less or----
    Mr. Sestanovich. Their congressional staffs are not as big. 
I let you draw your own conclusions from that.
    On the question of where our policy toward Russia, 
countries of the former Soviet Union and other countries comes 
from, it comes from a rather broad and open process of the same 
sort, which is ultimately, under the President of the United 
States.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Steve.
    First, about some of the points that Tom Campbell made 
earlier, and some of the things that we have been having to 
endure from the media as of late, and just to reaffirm, those 
of us who are elected by our constituents believe that our 
Constitution requires that the Congress play a significant role 
in determining foreign policy, especially the involving of the 
United States of America in a war. Clearly the founders of our 
Republic wanted the Congress to be involved in that and did not 
see that the President of the United States as an individual 
had the powers of a king in engaging the new country or the 
United States of America in a war.
    We had gotten through that, and we spent hundreds of years 
under the rule of a king, and that is not what we have now. 
During the Cold War we permitted certain leeway and certain 
centralization of power to happen in the United States of 
America, and the Cold War is over. I think this is the process, 
what we see now, and some of the friction going on is a process 
in the shaking out and the redistribution of that power again 
after the Cold War.
    Now, on to some specifics, and I am sorry I was not here 
earlier. I am the Chairman of the Space and Aeronautics 
Committee, and I had an important hearing about the 
implications of Y2K on our space program and whether or not 
there will be some major problems. But as the Chairman of that 
Subcommittee, I have been deeply involved with the effort to 
cooperate with our former enemies in Russia who are now our 
potential friends in the space effort.
    Let me ask you this: I was not here to hear you say this, 
but is it my understanding that you suggested that Russia is 
not involved in proliferating weapons, missiles and other 
technology?
    Mr. Sestanovich. I don't think I could have said anything 
of the sort, Congressman. What I said is that the flow of 
missile technology from Russia to other countries and 
particularly to Iran is one of our greatest concerns, and 
something we have spent an immense amount of time and effort 
trying to get the Russian Government to address and control.
    Mr. Rohrabacher. Fine. Because I heard another Member make 
a suggestion that you had indicated that.
    Mr. Sestanovich. Please give me his name, and I will try to 
straighten him out.
    Mr. Rohrabacher. Now as to this situation in the Balkans, 
from what I understand, Curt Weldon, when he went there with 
the delegation of the Members of Congress to negotiate with the 
members of the Duma, reached a compromise solution with the 
members of the Duma and were about to underscore the importance 
of that kind of cooperation when they were informed that they 
should not go to Serbia and to Belgrade because Jesse Jackson's 
mission had been a failure and that the prisoners were not 
going to be released, and thus they were encouraged by the 
Administration to abort that part of their plan which was to go 
forward together, members of the Duma and Congress, to 
Belgrade, receive the prisoners, and announce to the world that 
there is an option that we have reached some sort of a 
potential breakthrough for a peace proposal.
    Why did the Administration suggest to Congressman Weldon 
that the prisoners were not going to be released and try to 
discourage him from going to Belgrade?
    Mr. Sestanovich. I spoke to Congressman Weldon a couple of 
times about this question, and I am a little surprised by your 
recollection of it, and I will tell you why. We had a 
discussion, he and I, when he was in Vienna in the middle of 
his discussions with the Duma-Congress group that was there, 
the kind of contact that, by the way, we think is very 
positive.
    Congressman Weldon said to me that he had been given some 
vague statements from someone representing himself as an 
emissary of President Milosevic indicating that it might be 
possible to release prisoners if they visited. But he said he 
had no intention of going unless there was a public statement 
that there would, in fact, be a release of these prisoners so 
that he wasn't subject to the kind of bait and switch tactics 
that we have seen used by President Milosevic sometime in the 
past. I thought that seemed like a very good approach.
    Mr. Rohrabacher. So your answer is that the Administration 
did not discourage Mr. Weldon.
    Mr. Sestanovich. I thought we left it when we talked was 
that his approach of insisting on a public statement that would 
get him--would put President Milosevic on the record about an 
intention to release prisoners seemed like a good protection 
for him. But if your question is broader than this as to 
whether it seemed like a good idea to get involved in 
negotiations with President Milosevic, that did not seem 
advisable. But on the question of prisoners, Congressman Weldon 
seemed rather aware of the risks involved in going without firm 
assurances.
    Mr. Rohrabacher. I understand from Mr. Weldon that they had 
agreed after negotiations with the Duma that Russians could 
agree, and the Serbians who were present said that this would 
probably be acceptable and were on the telephone in 
communications with Mr. Milosevic, that instead of having NATO 
peace keepers as we were demanding, they would accept non-NATO 
peace keepers, the United Nations peace keepers, and they would 
be armed, and there would be autonomy for Kosovo. Just from a 
distance, it appears that the Administration is moving toward 
that position at this moment.
    Is this correct? I mean, are we moving toward the point 
where we could now accept,--instead of the NATO peace keepers, 
U.N. peace keepers as Mr. Weldon negotiated in Vienna?
    Mr. Sestanovich. Our view and that of the NATO Alliance has 
been that the only kind of peace keeping force that will solve 
the problem of creating enough confidence for refugees to 
return is one that has NATO at its core, and that is an 
unchanged position.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Ambassador, we have been watching television in the 
last couple of days, and we have seen Mr. Chernomyrdin--I never 
can pronounce those Russian names.
    Mr. Sestanovich. Chernomyrdin.
    Mr. Burton. Yes. Come back from China and say that they and 
the Chinese are of one mind that the United States and the NATO 
allies should stop the bombing and pull out of Kosovo. Now, 
with the upheaval that is taking place with Mr. Yeltsin firing 
Mr. Primakov and other members of the Cabinet, one wonders, if 
there might be a destabling influence in Russia that could lead 
to open hostilities. In other words, the Russians have been 
long-time allies of the Serbs. They told us and the Chinese 
have said you need to stop bombing and get out of there. They 
put a Russian trawler out there in the sea for intelligence 
purposes, we understand. Now you have this upheaval there in 
the hierarchy in Russia. I just would like to have your opinion 
as to whether or not you think this could lead to some direct 
or more involvement by Russia and possibly China in the Kosovo 
issue if we don't adhere to their wishes.
    Ambassador Sestanovich. Congressman, President Yeltsin has 
made some very strong statements about the importance of 
staying out of this conflict. He has said that there is--and he 
has given directives to make sure that there is no risk of 
that--that there is no provision of military equipment to 
Yugoslavia which would violate a U.N. embargo, that there is 
not a provision of military intelligence to the Yugoslavs.
    We don't have any indication that anything is happening 
other than what President Yeltsin has said on that, and we 
certainly would not want the kind of hostilities that you 
describe to take place. So we are mindful of that. They are 
very mindful of it.
    Mr. Burton. I understand and I know that Yeltsin is 
concerned about it, but they are trying to impeach him right 
now. He has just fired his foreign minister and other members 
of the cabinet. You have got some real hard liners in the Duma 
over there, and some of those hard liners, or many of those 
hard liners, are former Communist Party members who are----
    Ambassador Sestanovich. Current Communist Party?
    members.
    Mr. Burton. Current Communist Party members, who are very 
supportive of Milosevic, and they don't want us in there; and I 
just wondered if we had any intelligence information or 
information through the State Department that would lead one to 
believe that we might have a problem with Russia and maybe even 
China, if something isn't done to bring about a halt to the 
problem in Kosovo.
    Ambassador Sestanovich. I can't speak about China. I can 
tell you that the activities of the Russian Government indicate 
that they are following the concert directives that President 
Yeltsin has spoken of publicly.
    Mr. Burton. So your position is that Yeltsin's----
    Ambassador Sestanovich. As to the members of the Duma, they 
are not in a position to make decisions of that kind.
    Mr. Burton. Unless they impeach him.
    Ambassador Sestanovich. Even then.
    Mr. Burton. Now, let us talk about one other subject, 
quickly before my time runs out. Have you or other top 
officials of this Administration ever been presented with 
credible reports or evidence that top Russian officials have 
personally engaged in activities that would be considered 
corrupt by our standards? I didn't know that was a funny 
question, but that is OK.
    Ambassador Sestanovich. I think it is fair to say that the 
ethics laws and regulations that govern the activities of 
Russian political figures and the general practices are a 
little looser than they are here.
    Mr. Burton. I have been told that there was a report that 
State Department had seen or had been involved in that showed 
that there was corruption by top officials in the Russian 
Government, and it was not made available or public.
    Chairman Gilman. The gentleman's time has expired. I thank 
the gentleman. We thank the Ambassador for being patient in 
extending his time for us throughout the vote period. We now 
proceed to the next witness.
    [The prepared statement of Ambassador Sestanovich appears 
in the appendix.]
    Chairman Gilman. Our next witness is General Scowcroft.
    Mr. Faleomavaega. Mr. Chairman.
    Chairman Gilman. Yes, Mr. Faleomavaega.
    Mr. Faleomavaega. Could I just convey a question to the 
Ambassador before he leaves. I really would appreciate it.
    Chairman Gilman. All right. We are running late. If you 
would, go ahead.
    Mr. Faleomavaega. Mr. Ambassador, I understand there's a 
Russian company who is in concert with a New York firm that 
wants to set up a multi billion dollar nuclear storage facility 
somewhere in the South Pacific.
    Can you check that out for me, Mr. Ambassador, if this is 
true? I want to know the name of the Russian company and also 
want to find out if this is in accordance with our stated 
public policies about Russian companies that go out setting up 
nuclear storage facilities.
    Chairman Gilman. Mr. Ambassador, if you would submit that 
to the Committee we will make it part of the record. Thank you 
very much.
    We now proceed to our second panel, General Scowcroft and 
Dr. McFaul. Lieutenant General Scowcroft is President of the 
Scowcroft Group, an international investment advisory firm, and 
President of the Forum for International Policy, a nonpartisan, 
nonprofit organization providing independent analysis on major 
foreign policy issues.
    General Scowcroft has served as National Security Adviser 
to Presidents Ford and Bush, as a Military Assistant to 
President Nixon and as Deputy National Security Adviser to 
Presidents Nixon and Ford. General Scowcroft has held a broad 
range of positions during his military career and has 
subsequently chaired and served on a number of important policy 
advisory councils.
    We also have with him on this panel Dr. Michael McFaul. Dr. 
McFaul is a senior associate at the Carnegie Endowment for 
International Peace. He is an Assistant Professor of Political 
Science at Stanford University and a research fellow at the 
Hoover Institute.
    We welcome our witnesses. We regret it has taken this long 
to get to your testimony. We thank you for your patience.
    Chairman Gilman. General Scowcroft, you may proceed. You 
may put your full statement in the record and summarize it with 
a statement, if you prefer.

STATEMENT OF HON. BRENT SCOWCROFT, LT. GENERAL, USAF (RETIRED), 
PRESIDENT, THE SCOWCROFT GROUP, INC., PRESIDENT, THE FORUM FOR 
  INTERNATIONAL POLICY, FORMER ASSISTANT TO THE PRESIDENT FOR 
                   NATIONAL SECURITY AFFAIRS

    General Scowcroft. Thank you very much, Mr. Chairman. It is 
a great privilege to be here before the Committee on such a 
complicated and important subject. I do not have a written 
statement, but I do have a few preliminary remarks I would like 
to make.
    Without going into the historic roots of Russian foreign 
policy, let me make just a few introductory remarks about some 
of the forces I think are motivating Russian foreign policy 
today.
    I think there are two principal aspects to Russian foreign 
policy, motivating them. Both of them are resulting from the 
conditions in which Russia finds itself today. A deplorable 
economic state and deteriorating scientific and defense 
establishment industry is one. The disappearance of the Soviet 
Union is another, and finally, deep humiliation about their 
fall from great power status to a middling political power with 
an economy about the size of the State of Illinois.
    The first state, their deplorable economic state affecting 
their military and their defense industries, leads to arms 
sales, technology sales, scientific missions and so on that are 
certainly affecting us in a number of parts of the world.
    My sense is that the primary motivation is economic rather 
than political but, in some cases, I don't think you can rule 
out a political motive. They are desperate to keep their arms 
industries going. They are desperate to keep their scientists 
employed, and in addition to that, the control of the state 
over all of its entities is fairly loose.
    The second part, the disappearance of the Soviet Union, has 
not fully been accepted by a number of quarters inside Russia, 
and there is a sense that somehow the former parts of the 
Soviet Union eventually will in some way rejoin or something 
and that the vast raw materials, for example, down in the 
Caucasus and in central Asia really, by right, belong to 
Russia. I think that, in part, motivates some very troublesome 
aspects of Russian policy in, for example, Georgia, in 
Azerbaijan, and elsewhere in central Asia.
    In addition to that is a third, the sense of humiliation of 
Russians, of a proud country reduced from its Cold War status 
to its present condition. I think that sense of humiliation is 
leading them to lash out in many directions, is in itself 
beginning to breed an anti-Western sense of nationalism, and I 
will mention that a little later.
    In the early post-Cold War years, I think the United States 
in its policy was very cognizant of this sense of humiliation. 
We really reached out to try to avoid saying that the Soviets 
lost the Cold War, reached out to make them feel a member of 
the Western community.
    That even went to the extent in 1993 of looking the other 
way when a disagreement between Yeltsin and the parliament led 
to a shelling of the parliament building when they refused to 
be dismissed. In 1994, in the tragedy in Chechnya, the 
Administration said, initially, that it is an internal matter--
quite different from what we have said subsequently about 
Kosovo, for example.
    We really reached out to try to embrace the Russians, but I 
think gradually we have changed. We have not changed our 
policy. What we have changed is the execution of the policy. 
Gradually, we have turned to a policy either of neglect of 
Russia or hectoring them on issues that are of importance to 
the United States. I think it is further humiliating them and 
is a primary cause now of the growth of anti-Western and anti-
U.S. nationalism in Russia.
    I think this change, again in execution, not in policy, 
really began with NATO expansion. NATO is, for the Russians, 
the living symbol of their defeat and fall from power. Now, do 
the Russians go to bed every night worrying about NATO, wake up 
every morning cursing NATO? No, of course not, but NATO is 
still a four letter word for the Russians and will always 
remain one.
    With respect to NATO expansion, all of the prospective new 
members of NATO, with the exception of Slovenia, are former 
members of the Warsaw Pact or of the Soviet Union itself. I 
think the Russians could be excused if they think that all this 
is happening to them because they are weak and we are taking 
advantage of that weakness, thus, again, reminding them how 
they have changed and deepening their humiliation.
    I think almost everything that has happened in the last 
years, whether it is this, whether it is the ABM treaty, or 
proliferation, has furthered this attitude. To me, the climax 
of this trend took place in January this year when the 
Secretary of State went to Moscow to meet with Prime Minister 
Chernomyrdin.
    She said she had a five point agenda: First, the Russian 
budget is unrealistic; second, the CFE proposals, that is, 
conventional force changes, in Europe are unacceptable; third, 
we deeply resent the anti-Semitic character of recent Russian 
remarks. Fourth, the transfer of missile and nuclear technology 
to Iran is unacceptable, and if it continues, we will cutoff 
quotas for Russian rocket launches. This seems to me 
counterproductive and, again, could be interpreted by Russians 
as an economic competition seeking to shut down their rocket 
industry in favor of ours. Last, we have a problem with the ABM 
treaty because of rogue nations with missiles, and we would 
like to negotiate revisions. If we can't do that, we may have 
to denounce it.
    The only thing the Russians have left of great power status 
is their nuclear weapons; and the abrogation of the ABM treaty 
could jeopardize their ability, especially in their weakened 
state, to maintain a robust deterrence.
    When Ms. Albright was asked the question, well, given this 
list, the agenda you have, is it time to return to a policy of 
containment of Russia? She said, don't be ridiculous, our 
policy is engagement. I think this is illustrates the problem 
we face. We are doing things unconsciously to the Russians that 
are driving them into hypernationalism.
    It is not our intent, but we need to look at our policies 
to see if there are not ways we can engage the Russians, on 
nonproliferation, for example.
    We just beat up on them in Iran. Have we asked them to help 
us with North Korea, with Libya, with all of the others 
``rogue'' states? No. Take the ABM treaty. Ronald Reagan said 
when we develop SDI that we will give it to the Soviet Union. 
Why not go to them and say, look, we both face this threat. Why 
not cooperate in dealing with it?
    I don't think the Russians are in a position to do anything 
about any of these things, they are so weak. It is the attitude 
and the perception of us taking advantage of them in that 
condition which troubles me.
    The final chapter in this saga was the initiation of a 
bombing campaign in Kosovo when Primakov was literally in the 
air flying to Washington, the ultimate humiliation. Either he 
came to Washington as if nothing had happened or had to turn 
around and go home. While I agree with Congressman Leach's 
comments about Russia and Serbia, I think a lot of their 
motivation right now is not a Serbian-Russian love affair so 
much as it is the Russians want to be a participant. They want 
to be included. They don't want to be ignored except when we 
beat up on them.
    Ironically, we are now turning to them, imploring them to 
bail NATO out of a failed or a faltering military policy. This 
is an enormous temptation for the Russians, both to deal NATO a 
blow and to appear now as a key peace maker, the person or the 
country that will solve the problems we face in Kosovo.
    So I think, basically, while the Russians are doing a 
number of things that we don't like and we certainly ought to 
call them to account for it, we are in danger of promoting, by 
our actions, not by our policy, a virulent anti-West, anti-U.S. 
nationalism which we will come to regret in coming years.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, General Scowcroft.
    Chairman Gilman. Dr. McFaul.

STATEMENT OF DR. MICHAEL A. MCFAUL, SENIOR ASSOCIATE, CARNEGIE 
   ENDOWMENT FOR INTERNATIONAL PEACE, ASSISTANT PROFESSOR OF 
             POLITICAL SCIENCE, STANFORD UNIVERSITY

    Mr. McFaul. Thank you, Mr. Chairman. I have a longer 
statement which I would like to submit to the record and just 
summarize here.
    Chairman Gilman. Without objection the full statement will 
be made part of the record. You may go ahead with your summary.
    Mr. McFaul. Thank you. It is both a pleasure and honor to 
be here. In answering your question on what are Russian policy 
foreign objectives, my answer is it depends on who you ask in 
Russia.
    In making our assessments of Russia's behavior in the 
world, I think it is absolutely critical that we realize that 
Russia today is not a totalitarian state dominated by the 
central community of the Communist Party, the Soviet Union. 
That state disappeared in 1991.
    Rather, Russia is a democratizing state, a weakly 
institutionalized democracy with a lot of deficiencies, but a 
democratizing statement nonetheless. Consequently, Russia's 
foreign policy is a product of domestic politics, competitive 
domestic politics in Russia today.
    That system is highly unstable and highly erratic with poor 
institutions, unlike our own; but the policies that we see 
throughout the world are a product of domestic politics in 
Russia. It is not too much unlike the debate I heard here 
earlier this morning between you. I heard lots of different 
foreign policies. Had a Russian walked in and asked different 
ones of you, he might have had five or six different ideas 
about what American foreign policy is today. I think we need to 
remind ourselves that it is precisely the situation you have in 
Russia today.
    Now, there are a few things that most Russians agree upon. 
First, they all recognize that resolving Russia's economic 
decline and internal weakness is a precondition for 
establishing Russia as a great international power again today. 
You cannot be an international actor if your economy is the 
size of Illinois, no offense to Illinois; nor can you be a 
serious international player if you can't control your own 
borders. Everybody recognizes that.
    Second, all Russian actors agree that Russia must pursue 
economic, political, and military integration within the 
Commonwealth of Independent States. Russia, quite frankly, 
wants to continue to have a sphere of influence in the 
Commonwealth of Independent States. There is little 
disagreement in Russia today about that.
    Third, most leaders, not all, but most leaders in Russia 
believe that Russia's nuclear arsenal is the one power 
attribute that still accords Russia special status in the 
international system, just as General Scowcroft said. As a 
consequence they do not want to lose that. That is where it 
ends, though. That is where the consensus ends.
    After that, on virtually every other major foreign policy 
issue, I think there is major disagreement in Russia; and to 
understand what the policy is, one needs to understand who is 
up and who is down in terms of Russian domestic politics.
    Let me spell out for you four different camps in Russia 
which I think the ebb and flow of them are important to 
understanding the conduct of Russian foreign policy.
    First, there are what I call the pro-Western idealists. 
These are individuals and parties who have a normative 
commitment to integrating Russia into the Western community of 
democratic states. They believe that Russia is best served by 
becoming an integral member of the West.
    This group includes the liberal reformers that dominated 
the government in the earlier part of this decade, personified 
first and foremost by former Foreign Minister Kozyrev. They 
dominated in 1992 and 1993. Their power has waned ever since; 
and today they are marginal actors in the definition of Russian 
foreign policy, but they are still players nonetheless.
    The second group is what I call the pro-Western 
pragmatists. This group also believes that Russian interests 
are best served by Russian integration with the West, but they 
believe this for material, economic reasons, not for normative 
reasons. They are not what I would call democrats with a small 
``D'' necessarily. Rather, they are economic actors that see a 
win-win situation in terms of Russia integrating into the West.
    This includes companies like Gazprom, the largest gas 
company in the world, oil companies, mineral exporters, high-
tech enterprises and large financial organizations. There are 
also a few important Governors that I would put in this camp, 
as well as a whole host of Russian nongovernmental 
organizations, church groups, trade unions, student 
associations, and women organizations that also believe that it 
is in Russia's interest to integrate into the West.
    Former Prime Minister Viktor Chernomyrdin is the leading 
political figure in Russia that I would identify with this 
camp; and also, by the way, I would say that the majority of 
Russian citizens also were in this camp, although that has 
changed in the last month. From 1993 until August 1998 this 
group dominated the definition of Russian foreign policy and, 
depending on the issue, they still play a very important role 
in the conduct of Russian foreign affairs abroad.
    Third group I would label--and this might sound a bit like 
an oxymoron, but as the anti-Western pragmatist. Like the 
second group, this group believes that influence in foreign 
policy debates and the definition of foreign policy should be 
driven first and foremost by Russian interests and not norms, 
morals, or revolutionary missions.
    However, this group does not believe that integration in 
the West is a win-win situation for Russia. Rather, they look 
to the world to be a zero-sum game competition between Russia 
and the West; and so if America is up, that means Russia is 
going down.
    They look at the world as a unipolar world today, dominated 
by the United States; and they want to do everything they can 
to destroy American hegemony and create what they term a 
multipolar world.
    However, this group are pragmatists. They are well aware of 
Russia's weakness, and so they realize in the short term they 
need Western engagement but not necessarily to integrate with 
the West, but actually to compete with the West.
    In this group I would say that Prime Minister--or I should 
say former Prime Minister Primakov, is the leading proponent of 
this view. Many nationalist groups I would put in this group as 
well, directors of military enterprises, some, but not all, 
within the ministry of defense, and the Russian intelligence 
community. From August 1998 until today, literally this 
morning, this group dominated the definition of Russian foreign 
policy.
    Then my fourth group, finally, are what I call the anti-
Western ideologies. These folks are passionately anti-Western. 
They are motivated by norms, ideological beliefs, sometimes 
ethnic, civilizational kinds of things; and they promote a kind 
of foreign policy that is actually not in Russia's national 
interest, at least from my point of view.
    This includes Mr. Zhirinovsky, the head of the Liberal 
Democratic Party. It includes many, many members of the Russian 
Communist Party today and even more radical groups on both the 
left and the right.
    This group gets a lot of attention in the West for the 
things they say about foreign policy, but I think it is 
important to realize that they have never been in control of 
foreign policy in Russia and are unlikely to be in control of 
Russian foreign policy in the near future.
    Let me turn briefly to Kosovo to illustrate how these 
different groups have competed for influence and how it 
influences the conduct of Russian foreign policy.
    The initial reaction to Kosovo was dominated by the anti-
Western ideologies. If you looked and you saw the camera shots 
outside of the American embassy, it was Zhirinovsky out there. 
It was the Communists out there, throwing beer cans and talking 
about Western imperialism. They were in charge; and it seemed 
for a time, by the way, that they would push Russian policy in 
directions that I think would not have served Russia's national 
interest.
    However, the second phase of the Russian policy was not 
dominated by them. Russia did not go to war to help their 
Serbian brothers, i.e., norms, ethnic ties, rather than 
interests. Rather, Mr. Primakov realized that that was not in 
Russia's interests, and the second phase of Kosovo--Russian 
policy toward Kosovo was dominated by the anti-Western 
pragmatists.
    They understood that Russia was too weak to do anything in 
this; and yet, they were motivated first and foremost to try to 
weaken the NATO alliance, to try to split the NATO alliance, 
and try to make this a losing proposition for the United States 
and, consequently, a winning proposition for Russia.
    That group lost control of the policy. When Mr. Yeltsin 
appointed former Prime Minister Chernomyrdin, the pro-Western 
pragmatists took over the definition of Russian foreign policy; 
and after Primakov's dismissal this morning--by the way, I 
would add they are now firmly in the driver's seat until at 
least the next go-around in terms of the definition of Russia's 
policy toward Kosovo.
    They believe that this is a win-win situation. They welcome 
the chance to be on the international stage, and they want to 
cooperate in a way with the NATO alliance to find a win-win 
situation in Kosovo.
    Think about that. In the period of 4 weeks, Russian foreign 
policy had three different policies on Kosovo. If I had more 
time, I could walk you through a whole range of different 
foreign policy issues where you would see the exact same 
fluctuations and tendencies.
    There is important lessons here, and I will be brief about 
what this means for U.S.-Russia relations. First, it means that 
we cannot assume some static foreign policy coming out of 
Russia. On the contrary, it is a very volatile situation 
domestically, and that means that Russian foreign policy is 
also going to be very volatile.
    Now, in the short run I think that is negative and very 
bad. Who do you talk to? Who are your partners over there? It 
is difficult to know. In the long run, I think that keeps the 
door open that I would call the pro-Western pragmatists and 
even the pro-Western idealists might win out in Russia.
    Today they're down and out. Today they don't dominate on 
most issues, but it is simply too early to say this game is 
over. This game is not over. I am a big fan of the NBA, 
watching a lot of NBA games. You turn it on in the second 
quarter and your team is down 20 points, you are a really 
foolish person to think that that is going to be the end of the 
game.
    Right now, I think we are in the second quarter of our 
relationship. It is a long ways until we know the outcome of 
Russia's domestic politics; and we have to keep in mind, 
therefore, that positive outcomes down the road may be 
possible.
    Finally, let me leave you with one last fact. The very fact 
that Russian groups are arguing and competing for interest 
about foreign policy, to me, is also a positive sign. This is a 
great, vast improvement over when we just read central 
Committee directives about what the Soviet Communist Party 
believed Soviet national interest in the world were.
    The vigor of their debate and the range of opinions in 
Russia are almost as heated and vigorous as the ones you hear 
in your own building, and I think that is a positive sign for 
Russian democracy.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. McFaul appears in the 
appendix.]
    Chairman Gilman. Thank you, Dr. McFaul.
    General Scowcroft, at the height of the Cold War our Nation 
found a way to balance Russian and Chinese antagonism to the 
benefit of our Nation in the so-called ``Strategic Triangle.'' 
How can we best manage a situation in which Russia and China 
appear to work together to undermine America's ability to 
project power and influence in key regions, regions such as the 
Persian Gulf and the straits off of Taiwan?
    General Scowcroft. Mr. Chairman, I think that we need to 
keep in mind the benefits of the kind of policy we had in the 
Cold War. A rule of thumb for me would be to have better 
relations with both the Russians and the Chinese than they can 
ever have with each other. They may be tactical allies now, and 
I believe the Russians are doing things against their 
fundamental interests--selling weapons and technology to the 
Chinese.
    I doubt the possibilities of a thorough strategic alliance 
between the two. There are too many enmities, but they are two 
big players in the world. They are two of our primary concerns 
in this new millennium, and we need to get it straight with 
both of them and act with respect to both of them from cold, 
calculated policy, not emotion.
    Chairman Gilman. I thank you for that response. General, 
some historians see Russian foreign policy historically rooted 
in a desire to make certain that the Russian state doesn't 
disintegrate and, therefore, inevitably resulting in policies 
that are meant to insure the existence of a ``great, united 
Russia'' and to make certain that regions bordering Russia, 
such as the Baltics and Ukraine, do not truly break away from 
Russian control. U.S. policy would prefer that Russia respect 
the territorial integrity of its newly independent neighbors, 
however.
    Do you believe that Russian foreign policy toward its 
neighbors today is radically different from its previous 
incarnations under the czars and the Communists and will 
refrain once and for all from seeking to reinstate control over 
countries such as Ukraine?
    General Scowcroft. I think the jury is still out. The 
Russians are searching for their soul in many respects. I think 
the historic arguments between the Slavophiles and the 
Westernizers in Russia is, in a way, still going on in 
modernized form. Who are they, the Russians are asking 
themselves, who are they, what are their fundamental interests, 
and so on.
    Historically, Russia has been invaded over and over and 
over, and their fundamental security policy has been to build 
padding around the Russian heartland to give defensive space, 
and it has served them well.
    One of the whole problems of Eastern Europe and what we do 
about Eastern Europe goes back to that. For the West, it has 
been a buffer against the infection of communist Russia. For 
the Russians it has been a bulwark that invaders would have to 
penetrate.
    I think we ought to do two things: First of all, shore up, 
to the extent we can, the independence and the ability to 
survive of the former members of the Soviet Union, encourage 
them to have viable political systems and economic systems and 
let the Russians know that we consider them permanently 
independent. But, do it in such a way as not to drive Russia 
into a belief that we are trying to take advantage of their 
period of weakness to build a system around them by which we 
can throttle them or keep them under control.
    Chairman Gilman. That is trying to balance a pretty fine 
line.
    General Scowcroft. It is a fine line. I don't think it is 
past our ability to do. If we don't do it we are going to fall 
off one way or another, and I think we will live to regret it.
    Chairman Gilman. Dr. McFaul, at our hearing back in July on 
U.S.-Russia relations prior to the August economic collapse in 
Russia, most of our witnesses felt that further IMF loans to 
Russia would only buy a little time before the next economic 
crisis in Russia. In fact, the IMF loan last year subsequently 
bought only a month's respite before the August collapse.
    What, in your opinion, would be the rationale for providing 
a further IMF loan to Russia, and what new Russian economic 
reforms can you point to that would make Russia eligible for 
any new IMF funding?
    Mr. McFaul. Thank you, Mr. Chairman. I should say that I am 
not an advocate of further IMF funding. I do not see a record 
of achievement under the Primakov Government in terms of 
economic reform. They have not done elementary things, and so I 
do not think it is--you shouldn't reward inactivity.
    Having said that, the one rationale I could see for 
providing those funds is simply to avoid making the situation 
worse, but what IMF is talking about is simply take one check 
from one bank account and putting it in the other. They are not 
actually talking about transferring new money, and that would 
help Russia avoid further disaster.
    Having said that, I think there is a real mystery going on 
in the Russian economy and, that is, our dire predictions from 
July of last year and after the financial crisis simply have 
not come true. If you look at the statistics just released last 
week, inflation is only 3 percent in April.
    They are collecting more taxes last month than they did 
throughout the whole previous year. We do not have a good 
understanding of what is going on there. I suspect it is the 
state sort of buying time. I don't suspect it is fundamental 
economic reform, but I should note that we are pretty confused 
in terms of what is going on in the economy.
    Chairman Gilman. Thank you, Dr. McFaul.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. Let me say that I 
do think that, General Scowcroft and Dr. McFaul, you are both 
correct. I mean, the most astounding I think I have learned in 
sitting on this Committee for 18 years is how much is just 
personal.
    If the President doesn't visit the country enough, if the 
Secretary of State doesn't go there, if the Vice-president 
hasn't been there, they become obstreperous; and sometimes when 
you see areas of the world where we get a little trouble, you 
find that they at one point thought they were the center of 
activity; and now they think they are on the back road where 
nobody stops.
    Whether they do it consciously or subconsciously, they 
always get our attention. I think we do need to pay a lot more 
positive attention to Russia and not just in these situations 
of crisis.
    I agree in essence with both of you on the satellite 
launches. But I guess my question would be, if you agree with 
my position, that it is a bad place to put pressure, how do I 
convince Mr. Berman that there are good places to create 
pressure so that we have them clean up their act on 
proliferation without damaging their economy by limiting 
satellite launches. Frankly, I was one that would like to see 
an increase in Russian launches and a decrease in Chinese 
launches to make up for that shortfall we will face.
    On arms proliferation, the United States sells about half 
the arms worldwide. It is a little hard for us to stand up and 
kind of vent our moral outrage at Soviet arms sales to keep 
their defense industries alive while we participate in a 
similar practice with other countries.
    We think they are better countries, but the economic 
dynamic is similar in that it helps bring down the cost of this 
equipment when our own military buys it.
    We have bipartisan problems in the Congress of the kind of 
insensitivity you mentioned. We recently had a gratuitous vote, 
in my opinion, that simply stated we will deploy an ABM, an 
anti-missile system; and, one, we are not ready to do that.
    Two, it was aimed at the North Koreans, who may have a 
missile that can reach us; but as you have said, simply ignored 
what is the largest number of missiles that could be aimed at 
the United States. How do we move forward there? I would like 
to hear more about that.
    Third, one of our colleagues, Mr. Rohrabacher, continues to 
suggest that we simply pull out of NATO, that this Cold War is 
over and that we no longer need NATO or participate in NATO. So 
I would appreciate answers for those.
    General Scowcroft. Mr. Gejdenson, that is quite a list, but 
let me say something quickly on each one.
    On the launch quota as leverage, it just seems to me that 
it is counterproductive leverage. What we are saying is we are 
going to punish your good, honest firms who are doing things 
right in order to get at the ones who aren't.
    It seems to me that instead of doing that, we ought to say 
we will increase the quotas for these firms to show that we are 
cognizant of the good and the bad actors.
    Now, what we can substitute for it, I don't know. I have 
looked around. It is not easy, but I don't think you can defend 
the policy we have on the basis that we have to do something.
    Mr. Gejdenson. So you would be a very important voice on 
that issue in the coming months as Congress presses for the 
opposite, to shut off the launches, and I hope you speak out 
loudly.
    General Scowcroft. I will be happy to because we have 
forgotten U.S. interests here. We need places to launch our 
satellites. We do not have the capability here, and we are 
going to fall way behind unless we can solve this problem 
somehow.
    On the ABM treaty, it is a very complicated problem. I 
really do think we ought to try to enlist the Russians 
cooperatively. I think Michael makes a very good point, they 
are pretty hopeless now. They probably can't do anything even 
if they tried, but the psychological impact of our making the 
effort would be good.
    We also need to think, in the whole missile business, about 
the Chinese and their attitude toward missile defenses and so 
on. There is no point in doing something which will create the 
problems we are trying to avoid.
    On arms sales, I don't disagree with you, but I think we 
are thoughtful about our arms sales. It doesn't always work 
out, but the Russians are really not being thoughtful. They 
will sell to anybody who has the money to pay for it, and 
unfortunately, that is mostly the rogue states.
    NATO, I think, is still of critical importance to the 
United States; and it is less what NATO does than the fact of 
NATO. It represents American participation in the security of 
Europe; and if we have learned anything in this century, it is 
that that is critical. We cannot have a decent relationship, 
security relationship with Europe unless we have that kind of 
umbrella of NATO.
    Mr. McFaul. Very briefly to go through your list.
    Chairman Gilman. The gentleman's time has expired.
    Yes, Dr. McFaul.
    Mr. McFaul. Two seconds. On satellite launchers, of course 
we should not punish Khrunichev and Lockheed, by the way, in 
this. It simply makes no sense. They are definitely part of 
what I call this pro-Western pragmatists. I actually worked at 
that company in the early 1990's, and there is no doubt in my 
mind that they see cooperation with the West as in their 
interest and in our interest.
    On the ABM treaty, this is to me is a clear example of 
where emotion is trumping interests in Russia, and that to me 
says we have an opportunity to work with them, and I think 
there is lots of opportunities there. The ministry of defense 
officials are not as militantly anti-ABM and anti-ballistic 
missile defense as some of the politicians in the Duma.
    Finally, on NATO, I would just agree with General Scowcroft 
and let us keep the door open all the way to Russia.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Gejdenson.
    Mr. Cooksey.
    Mr. Cooksey. Dr. McFaul, could I get you to clarify one of 
your points. Was your second category pro-Western pragmatists 
or protagonists?
    Mr. McFaul. Pragmatists, excuse me.
    Mr. Cooksey. Do you think I would be correct in my 
assumption, feeling, that the leadership of Belarussia would 
fit into your fourth category of anti-Western ideologies?
    Mr. McFaul. Yes, that would be correct.
    Mr. Cooksey. My question about the view is, what is the 
likelihood of Russia forming a union with Belarussia as part of 
a greater Russia, and if so, how would that impact their 
foreign policy for the future?
    Mr. McFaul. If you look at the evolution of that policy, 
what was very clear from, say, 1996 to 1998 is that the 
pragmatist were blocking it, right. There was a lot of rhetoric 
about yeah, yeah, yeah, we all need to get together, but in 
fact, if you looked at the policy, it was Russia blocking it 
because it wasn't in their economic interest.
    When Mr. Primakov took over, he pushed more for that 
because it was seen as some kind of balancing against the 
United States which to me also seems absurd, but that is the 
way they framed it.
    There is a lot of hesitation right now. There is a big 
debate going on. I suspect that as we get into the Russian 
electoral cycle, nobody is going to want to say I am against 
this unification; and so you are going to see a lot of rhetoric 
about, yes, of course, I am for it. However, I wouldn't expect 
it to happen anytime soon. I suspect after the election you 
might see the pragmatists reassert themselves on that policy.
    General Scowcroft. I wouldn't disagree with that. I think 
the real danger here is, aside from these four groups, that 
there will arise because of a heightened spirit of nationalism, 
resentment at the West and so on, a leader who promises order, 
who promises he is going to lead Russia back to a time of 
greatness; and it is in circumstances like that that they may 
reach out to Belarussia.
    Short of that, I don't think it will happen, and I don't 
see that on the horizon; but if you look at the crop of 
Presidential candidates for the year 2000, it doesn't inspire 
confidence.
    Mr. Cooksey. General Scowcroft, I was in the Air Force this 
time 30 years ago, so I am impressed with your affiliation with 
the Air Force; but you were part of an Administration or two 
Administrations that I feel had sophisticated foreign policy 
and carried it out very effectively and accomplished their 
goals and had some overall strategic foreign policy.
    I think that probably one of the problems that the 
Administration had was that they did not put as much emphasis 
on domestic foreign policy, and probably that contributed to 
losing the election or either didn't put emphasis on it or did 
not laud your successes.
    I feel like currently we have an Administration that has 
put a lot of emphasis on domestic foreign policy and has a very 
unsophisticated foreign policy. I am from Louisiana and, a lot 
of people from Arkansas think that dealing with Louisiana is 
foreign policy, but that is neither here nor there.
    My question is, how does this play out in Russia? I think 
most of the nations in this day and time that have any 
semblance of democracy, elect leaders or choose leaders based 
on domestic policy and these leaders often are very 
unsophisticated on foreign policy, and that becomes a secondary 
goal or objective, and it creates a lot of problems between 
nations.
    What are the chances of getting a group of leaders in 
Russia that will have this increased sophistication on foreign 
policy, or do they have it now?
    General Scowcroft. I think we are going to have to be 
patient about the Russian political system. They don't know 
where they are. They don't know what they want. All these 
groups are contending back and forth.
    There are also the sophisticated urban areas of Moscow, St. 
Petersburg, then the rest of the country, which increasingly 
looks on Moscow as a hostile state.
    All these things may take decades to work themselves out; 
and what we need to do is be patient, be firm, patient but 
helpful where we can. Economically I agree we can't help at all 
right now, but we ought not to do things that gratuitously give 
rise to a kind of a hostile sentiment in the Russians and lead 
the Russians to say we don't belong to the West, we can't get 
into NATO, we can't get into the EU, the West doesn't consider 
us as Western; therefore, we had better not be, we had better 
do something else. That is the danger.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Cooksey. One quick question. I have a daughter who went 
to Russia some years ago in this people-to-people program. How 
effective do you think these programs are in developing a 
better relationship with these?
    Is there any way that we can get more people-to-people 
relationship, because I don't have a lot of confidence in the 
politicians in either country.
    General Scowcroft. We ought to push them wherever we can. 
Are they going to make a big difference in the short run? 
Absolutely not. But I think they certainly do no harm, and they 
advance our understanding of them and their's of us.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Cooksey. Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I personally 
want to welcome General Scowcroft and Dr. McFaul for our 
Committee hearing this afternoon.
    General Scowcroft, I have always been an admirer of your 
perception and especially of the expertise, tremendous 
expertise, that you have in having to serve previous 
presidents, especially in the area of security.
    You had indicated earlier that NATO, as a security, 
regional organization, was a must in order to provide stability 
in Europe, much to the chagrin, as you well know, of the 
Russians, because we know that the original purpose of NATO 
really was for defense purposes.
    At that time, at the height of the Cold War, we were 
fighting the former Soviet Union, Socialist Republics. Now 
there is no more Soviet Union, and you are advocating that we 
should still have NATO for the sake of stability in Europe.
    I would like your opinion as to where the Security Council 
of the United Nations comes into play? If we are going to have 
a regional security organization like NATO-Europe, why wouldn't 
we have one in Asia? Why shouldn't we have one in Africa?
    When you are talking about basic foreign policies involving 
ethnic cleansing, we have them in Africa, we have serious 
problems in the Asia Pacific region--and for the very 
fundamental humanitarian reasons, I fully support the 
President's position on why we had to go to Kosovo because, for 
anything else, you remember it's the same reason why President 
Bush went to Somalia.
    I want your opinion on this. If you think that NATO's is 
that important for Europe, shouldn't we also have regional 
security organizations in Asia and other regions of the world?
    General Scowcroft. No, I don't think so. I think in this 
sense Europe is unique. It has been the cockpit of wars for 100 
years. We have now, I hope, overcome that. If we ever have a 
really huge crisis again, a world crisis, the people who are 
going to stand by us in dealing with it are going to be the 
Europeans. It is not going to be India, it is not going to be 
China, it is not going to be Japan and so on, wonderful 
countries though they are.
    The core of the kinds of things that we believe in and the 
core of the kind of world that we are promoting reside in the 
Atlantic community; and we need that kind of solidity.
    I am much less concerned about NATO as an instrument to do 
anything, as I am about continuing to develop the sense between 
Europe and the United States that we are one, that we work 
together, that we think because that is what is going to make a 
better world for all of us.
    Mr. Faleomavaega. General Scowcroft, I beg to differ with 
you on this issue. When NATO was founded, de Gaulle pulled out. 
For some 40 years we single-handedly had to defend these 
European nations. Where was France?
    Now, all of a sudden President Chirac is shining out like a 
good example of being one of the brothers of this compact that 
they were never a part of, and constantly, France is always on 
our heels, always disagreeing on policies that we have had even 
in this current Administration.
    My question, too, where were our European allies when we 
were fighting in Vietnam? The South Koreans are the only ones 
that I saw when I was there. Are you also suggesting that the 
Japanese are not democratic enough to support these same 
fundamental principals that we are talking about?
    General Scowcroft. No, I think you missed my point. My 
point is not that we agree on everything with the Europeans. My 
point is that we come from the same root principles; and 
therefore, we are natural allies. We differ on a number of 
things. The French never left the NATO alliance. They left the 
Integrated Command System. When the chips are down, the French 
are there. Anytime there is a little wiggle room, they will 
wiggle away.
    What I am really saying is that we should not let this 
group that did so wonderfully in World War II and in the Cold 
War dissipate and have the United States go back to 
isolationism and Europe go its own way.
    I am not sure European integration is at the point where it 
will make it without the kind of stability that the Atlantic 
alliance gives it.
    Mr. Faleomavaega. My time is up. Thank you, gentlemen.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Faleomavaega.
    Mr. Campbell.
    Mr. Campbell. Mr. Chairman, thank you. Two questions, one 
to General Scowcroft. Is SDI in our interest? Do you support 
SDI; and if so, how do you do it, given ABM? How do you bring 
it to fruition given the ABM treaty?
    The question to Dr. McFaul, this is the big one, give us 
your answer on Kosovo.
    General Scowcroft. Yes, I think SDI is in our long-term 
interests, but I underscore long term. I think we ought to 
proceed with a vigorous ``R'' and ``D'' program. I don't think 
we have the answer to a system that is deployable at anything 
like the cost and effectiveness that we really ought to have, 
but I think we ought to work on it, and I see no reason we 
shouldn't go to the Russians and say we would like their 
cooperation. We would develop a system cooperatively and then 
would provide it to any country that is worried about a missile 
attack on its territory. I would transform the program from a 
unilateral, in-your-face one, which we have now, to something 
which can be a defensive weapon for everybody.
    Mr. Campbell. To follow a moment, the ABM treaty, if it is 
interpreted to ban a deployed space-based missile system--I 
understand that the legal adviser to the State Department in 
the Reagan Administration argued that it did not prohibit it--
but if you take the view that it did--do you take the view that 
it does--and if so, then we would, I take it, have to amend ABM 
or go to the Russians and denounce ABM, a technical term of 
denounce--I don't mean criticize it, just say 6 months' notice 
we are out of it. Is that correct?
    General Scowcroft. Yes, that is correct, we could. You see, 
I think the Russians would be amenable to modifications, 
assuming they are part of it--but weapons in space are 
something else. They won't agree to anything where they can't 
keep up and which we could use to deny them a deterrent 
capability.
    Mr. Campbell. Understood. Thanks.
    Dr. McFaul, what is the right answer in Kosovo? What should 
we do? I know a million experts who told us what we have done 
wrong. I have tried to avoid saying that because I never 
claimed to have any far-sightedness. The procedures, that is my 
field, right, at least I think it is--constitutional, what 
should have been done constitutionally; but I don't know the 
right answer.
    There are terrible human rights abuses. I don't want to 
make Russia our enemy for the rest of my lifetime. What is your 
answer right from this point? Not what should have been.
    Mr. McFaul. Not what should have been done.
    Mr. Campbell. Take us from where we are today and move me 
forward.
    Mr. McFaul. I want to make one comment as a social 
scientist, and then I will give you my views, which is that if 
you think about what I said about Russian foreign policy, I 
think there is a lot very similar about American foreign 
policy.
    What is wrong about what is going on today is that we do 
not have a shared definition of objectives in foreign policy. 
Think about 10 years ago--you could say our strategy was 
containment of Communism, and there might be some people who 
would disagree; but most people, both in the Congress and the 
executive branch, would agree with that.
    Today, we don't have that shared strategy; and, therefore, 
we tiptoe into things. People don't agree on the objectives; 
and, therefore, they disagree vehemently about the means.
    My own view is that it was right to do something about it, 
that we had to do something. You cannot--both for, I think, 
moralistic reasons you cannot just sit by and watch genocide in 
Europe if you are serious about being a power in Europe--and I 
think we should be--but that we have to have the means lined up 
with the ends. That is where I think our mistake has been.
    Today, of course, because there is not consensus about 
plying what I think are the right means to solve this, then I 
think we have to go for resolution. We have to do it with the 
Russians on board, and I do not see having the Russians being 
on board so far. I see it as a win for American foreign policy, 
not as some slippage so far, but we cannot allow--we have to 
now stay to the same objectives that we started from the get-
go.
    This is not about a marriage contract or some sort--
negotiation is even the wrong word. There is nothing to 
negotiate about. In my opinion, there is nothing to negotiate. 
We have our terms, and until those terms are met we have to----
    Mr. Campbell. Pardon me, international security presence is 
what the Ambassador representing the State Department spoke of 
earlier, involving Russians and peace keeping. That is part of 
the answer. You see it, too, I take it?
    Mr. McFaul. Yes.
    Mr. Campbell. So I am going to say something, and then you 
tell me whether it is right or wrong because I was really 
asking for you to give a definitive answer which would then be 
universally accepted by all.
    Russian troops along with some NATO presence, maybe not 
United States and the UK because of the objection of Milosevic, 
a mixed group goes into occupied Kosovo. It is a horribly 
bombed country; huge amount of money needed then to rebuild 
Kosovo. The bridges that we bombed Monday--will be rebuilt on 
Monday by you and me, tax payers. A number of years this force 
resides there to keep the Serbians from coming back. Is that 
the answer that you see as appropriate?
    Mr. McFaul. Unfortunately, I do and with one amendment--
that I absolutely believe it has to be that American forces 
have to be part of that component; if you don't do that, then 
you don't achieve your primary objective, which is to get the 
Kosovars back, and that is the important words to remember.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Campbell.
    Mr. Leach.
    Mr. Leach. General Scowcroft, earlier today I made an 
observation, may or may not be valid, but it struck me that 
from a diplomatic perspective this Administration had breached 
a century-long tradition of Teddy Roosevelt about speaking 
softly but carrying a big stick. In doing that, they have also 
breached a shorter-term policy of General Scowcroft's, and let 
me explain it.
    It strikes me that under the Bush Administration, if there 
is anything that was a doctrine--and this is a doctrine that to 
a degree stems from the President and from his National 
Security Adviser, yourself, which is very Chicago school, using 
your terms of art, very cold and calculating--it was the Powell 
Doctrine, which was to carefully describe objectives and then 
to apply overwhelming force if it need be to carry them out.
    It strikes me in Kosovo, which has enormous ramifications 
both for Russian policy as well as for NATO, we have struck a 
rather deep nail into the Powell Doctrine.
    Objectives seem to be a bit fuzzy, but more importantly, we 
have decided to not prevail; and instead, we have a doctrine of 
what appears to me to be punishment, that is, that the policy 
in place is very punishing to the Serbs, but may well be a 
policy not designed to prevail, which is an extraordinary 
circumstance in geostrategic terms, partly because this is a 
civil war, partly because whether or not it is a civil war, it 
is a war, and NATO has now been identified with this new 
policy.
    One aspect of NATO relates to whether anyone will want to 
join if this is the kind of policy that NATO comes to 
symbolize.
    I would like to ask you, as a Chicago school theorist, as 
well as a former National Security Adviser, how you assess this 
policy. Do you think it is realistic?
    General Scowcroft. I think NATO is very much at stake in 
Kosovo, depending on how it comes out. NATO will not 
disintegrate regardless of what happens, but it could erode and 
cease to be a cohesive force.
    However we got to Rambouillet, we did it with the 
accompaniment of a lot of threats to Milosevic, threats by the 
Secretary of State, Secretary of Defense, SACEUR and so on. 
When a great power threatens, it has to be prepared to carry 
out that threat. We have not always done that in the past, but 
that is a cardinal rule, because if you don't carry it out, 
then people cease paying attention to your threats and then you 
do have to use force.
    We operated from that point on with fairly fuzzy 
objectives. The Rambouillet objectives were different from 
those cited as the objectives of the bombing. They were not the 
same kinds of objectives, although they should have been 
identical, and our strategy was based on hope, rather than 
cold, calculating analysis. Once you say you are going to use 
force, you need to have it sufficient to achieve your 
objective.
    I don't think the bombing is punishment. I think it is 
hope--hope that we won't have to get troops on the ground and 
we don't have to get into a dirty ground war, that somehow this 
immaculate coercion will change Milosevic's mind.
    I don't think there ever has been a case--I can't think of 
a case where a bombing campaign by itself has changed a foreign 
leader's mind. The Serbs, if they stand for anything, it is 
their pride and their ability to take pain and show how tough 
they are.
    So it seems to me that the part of the Powell Doctrine--and 
I don't like that term. I think it is a misnomer--which is 
essential is the need to achieve your objectives. You can try 
it with bombing, but if bombing doesn't work in the first 3 
days, don't keep it up for 6 more months hoping it will.
    You have to have something else in your kit bag to say, 
yes, we are going to achieve that objective. If this doesn't do 
it, then we will do something, and that is what I think was not 
done.
    Mr. Leach. I appreciate that, and I would only conclude by 
saying I have never known a policy that can be, in my judgment, 
legitimately criticized from two perspectives.
    Either we should not have made the threats and not gotten 
involved; or if we did pursue it, we should have pursued it in 
a forthcoming way.
    General Scowcroft. I think it is exactly right.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Leach.
    Mr. Faleomavaega, just has one brief question, and then we 
will wind up our hearing.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I appreciate it.
    Gentlemen, we have learned a lot of lessons from Vietnam, 
and coming down to the question of using military force in our 
dealings with the Russian Government, as my friend from Iowa 
alluded earlier, it has become known as the Powell Doctrine. If 
you will, General Scowcroft, carry a big stick and if you are 
going to use military force, use it all the way. But it seems 
that our policy now is that we have gotten rid of the basic 
Powell Doctrine, if you will, in the Gulf War, but now we are 
using limited use of force and you are suggesting it is OK to 
use limited use of force.
    We learned our lessons from Vietnam. We bombed the heck out 
of those people. In fact, it energized the Vietnamese, whether 
they were Communists, pro-democratic or patriots, it energized 
those people to the point they became nationalists, and I 
believe that we are doing the same thing to the Serbian people. 
Forget Milosevic. We are doing the same thing to the Serbian 
people.
    I would like to ask the gentlemen, where are we going with 
this continued bombing? Do you think we should resort to a more 
forceful use of force of arms?
    General Scowcroft. Just very briefly, I am pessimistic 
about the ability of negotiations to achieve our objectives--
maybe to give us a fig leaf but not to achieve our objectives. 
I think the only way we can achieve our objectives is to 
prepare for and, if necessary, use ground forces.
    Mr. McFaul. I would like to concur with that. I think that 
is right. What troubles me is because of the way of our own 
domestic politics in this country that we do not have the 
support either for the objectives or for the means of achieving 
those objectives.
    Chairman Gilman. Thank you. I want to thank our panelists, 
and thank our Members. The Committee will submit questions in 
writing to the State Department for expeditious response by the 
official witness at today's hearing. This hearing stands 
adjourned.
    [Whereupon, at 1:20 p.m., the Committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                              May 12, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T2962.001
    
    [GRAPHIC] [TIFF OMITTED] T2962.002
    
    [GRAPHIC] [TIFF OMITTED] T2962.003
    
    [GRAPHIC] [TIFF OMITTED] T2962.004
    
    [GRAPHIC] [TIFF OMITTED] T2962.005
    
    [GRAPHIC] [TIFF OMITTED] T2962.006
    
    [GRAPHIC] [TIFF OMITTED] T2962.007
    
    [GRAPHIC] [TIFF OMITTED] T2962.008
    
    [GRAPHIC] [TIFF OMITTED] T2962.009
    
    [GRAPHIC] [TIFF OMITTED] T2962.010
    
    [GRAPHIC] [TIFF OMITTED] T2962.011
    
    [GRAPHIC] [TIFF OMITTED] T2962.012
    
    [GRAPHIC] [TIFF OMITTED] T2962.013
    
    [GRAPHIC] [TIFF OMITTED] T2962.014
    
    [GRAPHIC] [TIFF OMITTED] T2962.015
    
    [GRAPHIC] [TIFF OMITTED] T2962.016
    
    [GRAPHIC] [TIFF OMITTED] T2962.017
    
    [GRAPHIC] [TIFF OMITTED] T2962.018
    
    [GRAPHIC] [TIFF OMITTED] T2962.019
    
    [GRAPHIC] [TIFF OMITTED] T2962.020
    
    [GRAPHIC] [TIFF OMITTED] T2962.021
    
    [GRAPHIC] [TIFF OMITTED] T2962.022
    
    [GRAPHIC] [TIFF OMITTED] T2962.023
    
    [GRAPHIC] [TIFF OMITTED] T2962.024
    
    [GRAPHIC] [TIFF OMITTED] T2962.025
    
    [GRAPHIC] [TIFF OMITTED] T2962.026
    
    [GRAPHIC] [TIFF OMITTED] T2962.027
    
    [GRAPHIC] [TIFF OMITTED] T2962.028
    
    [GRAPHIC] [TIFF OMITTED] T2962.029
    
    [GRAPHIC] [TIFF OMITTED] T2962.030
    
    [GRAPHIC] [TIFF OMITTED] T2962.031
    
    [GRAPHIC] [TIFF OMITTED] T2962.032
    
    [GRAPHIC] [TIFF OMITTED] T2962.033
    
    [GRAPHIC] [TIFF OMITTED] T2962.034
    
    [GRAPHIC] [TIFF OMITTED] T2962.035
    
    [GRAPHIC] [TIFF OMITTED] T2962.036
    
    [GRAPHIC] [TIFF OMITTED] T2962.037
    
    [GRAPHIC] [TIFF OMITTED] T2962.038
    
    [GRAPHIC] [TIFF OMITTED] T2962.039
    
    [GRAPHIC] [TIFF OMITTED] T2962.040
    
    [GRAPHIC] [TIFF OMITTED] T2962.041
    
    [GRAPHIC] [TIFF OMITTED] T2962.042
    
    [GRAPHIC] [TIFF OMITTED] T2962.043
    
    [GRAPHIC] [TIFF OMITTED] T2962.044
    
    [GRAPHIC] [TIFF OMITTED] T2962.045
    
    [GRAPHIC] [TIFF OMITTED] T2962.046
    
    [GRAPHIC] [TIFF OMITTED] T2962.047
    
    [GRAPHIC] [TIFF OMITTED] T2962.048
    

</pre></body></html>
